<html>
<title> - FROM STRATEGY TO IMPLEMENTATION: THE FUTURE OF THE U.S.-PAKISTAN RELATIONSHIP</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                  FROM STRATEGY TO IMPLEMENTATION: THE
                FUTURE OF THE U.S.-PAKISTAN RELATIONSHIP

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2009

                               __________

                           Serial No. 111-33

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
49-547                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6502150a25061016110d0009154b060a084b">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
           Yleem Poblete, Republican Staff Director<greek-l>
            David S. Abramowitz, Chief Counsel deg.<greek-l>
           Kristin Wells, Deputy Chief Counsel deg.<greek-l>
     Alan Makovsky, Senior Professional Staff Member deg.<greek-l>
       David Fite, Senior Professional Staff Member deg.<greek-l>
   Pearl Alice Marsh, Senior Professional Staff Member deg.<greek-l>
     David Killion, Senior Professional Staff Member deg.<greek-l>
      Hans Hogrefe, Senior Professional Staff Member deg.<greek-l>
        Manpreet Anand, Professional Staff Member deg.<greek-l>
     Robin Roizman, Professional Staff Member/Counsel deg.<greek-l>
        James Ritchotte, Professional Staff Member deg.<greek-l>
         Michael Beard, Professional Staff Member deg.<greek-l>
          Cobb Mixter, Professional Staff Member deg.<greek-l>
         Amanda Sloat, Professional Staff Member deg.<greek-l>
         Peter Quilter, Professional Staff Member deg.<greek-l>
                Daniel Silverberg, Counsel deg.<greek-l>
         Brent Woolfork, Junior Professional Staff Member deg.
           Jasmeet Ahuja, Professional Staff Member<greek-l>
      Laura Rush, Professional Staff Member/Security Officer deg.
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Richard C. Holbrooke, Special Representative for 
  Afghanistan and Pakistan.......................................     6
Ms. Lisa Curtis, Senior Research Fellow, Asian Studies Center, 
  The Heritage Foundation........................................    35
Ms. C. Christine Fair, Senior Political Scientist, RAND 
  Corporation....................................................    46
Mr. Daniel Markey, Senior Fellow for India, Pakistan, and South 
  Asia, Council on Foreign Relations.............................    58

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Richard C. Holbrooke: Prepared statement...........     9
Ms. Lisa Curtis: Prepared statement..............................    38
Ms. C. Christine Fair: Prepared statement........................    48
Mr. Daniel Markey: Prepared statement............................    60

                                APPENDIX

Hearing notice...................................................    94
Hearing minutes..................................................    95
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    97
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................   100
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................   102
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................   103
The Honorable Gene Green, a Representative in Congress from the 
  State of Texas: Prepared statement.............................   104
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................   105
The Honorable Ron Klein, a Representative in Congress from the 
  State of Florida: Prepared statement...........................   107
Written responses from the Honorable Richard C. Holbrooke to 
  questions submitted for the record by:
  The Honorable Michael E. McMahon, a Representative in Congress 
    from the State of New York                                      108
  The Honorable Ron Klein........................................   110
  The Honorable Gerald E. Connolly...............................   111
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California.................................   116
  The Honorable Barbara Lee, a Representative in Congress from 
    the State of California......................................   118
The Honorable Barbara Lee: Submitted material....................   125
The Honorable Jeff Flake, a Representative in Congress from the 
  State of Arizona: Submitted material...........................   127


   FROM STRATEGY TO IMPLEMENTATION: THE FUTURE OF THE U.S.-PAKISTAN 
                              RELATIONSHIP

                              ----------                              


                          TUESDAY, MAY 5, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 12:20 p.m. in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order.
    It is a real pleasure for me to welcome Ambassador Richard 
Holbrooke, Special Representative for Afghanistan and Pakistan, 
to the committee this afternoon for his first appearance 
testifying before Congress in his new capacity, although he has 
been to this committee a number of times over the years. We 
know you have an extremely busy schedule, particularly with the 
second round of trilateral United States-Afghanistan-Pakistan 
meetings starting tomorrow. We appreciate your taking the time 
to be here.
    Our second panel this afternoon will feature several noted 
regional experts, including Christine Fair from the RAND 
Corporation, Lisa Curtis from the Heritage Foundation, and Dan 
Markey from the Council on Foreign Relations.
    I will yield myself time for an opening statement.
    Ambassador Holbrooke, all of us are deeply concerned about 
the deteriorating security situation in Pakistan. As I noted in 
our recent hearing with Secretary Clinton, the United States 
has an enormous stake in the security and stability of that 
country. We can't allow al-Qaeda or any other terrorist group 
that threatens our national security to operate with impunity 
in the tribal regions of Pakistan. Nor can we permit the 
Pakistani state--and its nuclear arsenal--to be taken over by 
the Taliban. In short, it appears to many of us that Pakistan 
is at a tipping point and we need to do whatever we can to make 
sure it goes the right way.
    We know you understand the gravity of the situation and 
commend you and your colleagues in the Obama administration for 
developing a comprehensive Afghanistan-Pakistan strategy. But 
now comes the hard part--translating that thoughtful strategy 
into real changes on the ground. How can the United States 
forge a true strategic partnership with Pakistan? What can we 
do to strengthen Pakistan's democratic government and to make 
it a force for stability in a volatile region?
    To help achieve these goals, a bipartisan group of my 
colleagues and I recently introduced H.R. 1886, the Pakistan 
Enduring Assistance and Cooperation Enhancement Act. This 
legislation would massively expand economic, social and 
democracy assistance to Pakistan and also provide a significant 
increase in military assistance.
    Specifically, the bill provides funding to strengthen the 
capacity of Pakistan's democratic institutions, including its 
Parliament, judicial system and law enforcement agencies. It 
also calls for increased assistance for Pakistan's public 
education system, with an emphasis on access for women and 
girls. To demonstrate America's long-term commitment to the 
stability and democratic future of Pakistan, H.R. 1886 
authorizes a permanent fund in the U.S. Treasury that will 
serve as a conduit for most nonmilitary assistance to Pakistan.
    With regard to military assistance, our legislation 
increases funding for professional military education, with an 
emphasis on training in counterinsurgency and in civil-military 
relationships. It boosts the funding available for Pakistan to 
purchase military equipment and requires that 75 percent of 
those funds be used for items directly related to 
counterinsurgency and counterterrorism.
    The legislation also codifies the 2006 contract between the 
United States and Pakistan that requires Pakistan to pay for F-
16 fighter aircraft with its own national funds rather than 
American tax dollars. To strengthen civilian control of the 
military, H.R. 1886 mandates that all military assistance flow 
through Pakistan's elected civilian government.
    Finally, and there has been much discussion and, I think, a 
great deal of misunderstanding, about the accountability 
provisions in this legislation. When I hear people talk about 
``rigid'' or ``inflexible'' conditionality, I am not sure 
exactly what they are referring to.
    Let me just read from the bill. Section 206 provides that 
no military assistance may be provided to Pakistan unless the 
President determines, and I am quoting,

        ``that the Government of Pakistan during the preceding 
        fiscal year has demonstrated a sustained commitment to 
        and made progress towards combating terrorist groups, 
        including taking into account progress the Government 
        of Pakistan has made with regard to: (A) ceasing 
        support, including by any element within the Pakistani 
        military or its intelligence agency, to extremist and 
        terrorist groups, particularly to any group that has 
        conducted attacks against the United States or 
        coalition forces in Afghanistan, including Afghanistan 
        National Security Forces, or against the territory of 
        India or the people of India; (B) closing terrorist 
        camps in the FATA, dismantling terrorist bases in other 
        parts of the country, including Quetta and Muridke, and 
        taking action when provided with intelligence about 
        high-level terrorist targets; (C) preventing cross-
        border attacks into neighboring countries, and (D) 
        strengthening money-laundering and anti-terrorism 
        laws.''

    These are just factors in the consideration the President 
would give.
    Ambassador Holbrooke, we are simply asking that the 
Pakistanis keep the commitments they have already made to fight 
the terrorists who threaten our national security and theirs, 
and that they make some progress doing so--with progress 
defined very broadly.
    If the President is unable to make that determination--or a 
second one relating to cooperation on nuclear 
nonproliferation--then he can always take advantage of the 
waiver we provide. Which of these conditions are unreasonable 
or unattainable? And if they are, then what does that tell us 
about our relationship with Pakistan?
    We hear that the administration will soon propose its own 
set of benchmarks for Pakistan. We look forward to working with 
you on accountability measures as H.R. 1886 moves through the 
legislative process, and we remain very open to hearing other 
formulations of the kind of accountability that I think all of 
us want.
    Ambassador Holbrooke, we look forward to hearing your 
assessment of the situation in Pakistan, your recommendations 
for implementing the Afghanistan-Pakistan strategy, and your 
thoughts on the legislation we recently introduced.
    I now turn to my good friend, the ranking member Ileana 
Ros-Lehtinen, for any statement she may want to make.
    Ms. Ros-Lehtinen. Thank you so much as always, Mr. 
Chairman. And thank you, Ambassador and the other panelists who 
will be with us today.
    I will focus my remarks on the outcome of the recent review 
and its implications for policy going forward. We are united in 
our goals. We want a long-term partnership with a modern, 
prosperous and democratic Pakistan that is at peace with itself 
and with its neighbors, a Pakistan that maintains robust 
controls over its nuclear weapons technology and a Pakistan 
that does not provide safe havens to al-Qaeda, Taliban, other 
Islamic militant extremists.
    While command and control of Pakistan's nuclear arsenal is 
presumably a top concern to Islamabad, recent Taliban advances 
underscore the critical importance of ensuring security for its 
nuclear materials and technology. As Secretary Clinton 
testified recently, nuclear weapons have been disbursed 
throughout Pakistan, increasing the risk that they may find 
their way to al-Qaeda, to the Taliban and other Islamic 
extremists. We must redouble our efforts on Pakistan's 
technical and human security capacity so as to ensure that 
there is a robust safeguards mechanism in place for its nuclear 
weapons program and facilities. The stakes are simply too high 
to ignore.
    The administration has endorsed Senate proposals to 
increase nonmilitary assistance to Pakistan to $1.5 billion 
over the next 5 years. When combined with existing or 
contemplated assistance programs, total United States aid to 
Pakistan, including reimbursement to the Pakistani military by 
the Department of Defense, would total at least $3.5 billion 
per fiscal year or about $17.5 billion total over the next 5 
years. Operationally how are we going to effectively put such 
funds to use?
    The American Embassy in Islamabad is under a virtual 
lockdown because of security concerns. We have withdrawn 
critical staff from our key consular outpost along the 
Pakistani frontier, and because of the difficult security 
environment, our Foreign Service officers generally only serve 
1-year tours in Pakistan. This means that they will have barely 
begun to understand their brief before they are rotated out and 
we lose critical institutional memory.
    The administration proposes to remedy this difficulty in 
part with an $800 million request in the supplemental 
appropriations bill for embassy security construction and 
maintenance for Pakistan. Completion of these projects however 
will in some cases take several months and in others many 
years. While issues of U.S. diplomatic capacity get sorted out, 
the administration has suggested that it may allocate much of 
the proposed increase in nonmilitary aid primarily toward 
budget support. Any proposed U.S. budget support would be in 
addition to at least $14 billion committed by the international 
financial institutions through the year 2013.
    Some would contend that enhanced trade with Pakistan may be 
far more economically meaningful than expanded aid. There are 
legislative efforts, we are told that the administration 
supports, that would create reconstruction opportunity zones in 
Afghanistan and in the border areas of Pakistan. Unfortunately, 
about a third of Pakistan's annual exports to the United States 
would be excluded from the definition of eligible products.
    There is limited industrial activity on the border areas of 
Pakistan and Afghanistan obviously. The Pakistani state is 
finding it hard to provide for basic amenities for its current 
population, much less after the expected boom in its population 
size. Further, under the circumstances, entrepreneurs are 
likely to be wary of new investments in the proposed industrial 
zones. The United States therefore needs to think far more 
boldly about mechanisms to expand trade opportunities in 
Pakistan and elsewhere in the developing world.
    Turning to the immediate security concerns and urgently 
needed assistance on this front, there needs to be a secure and 
reliable source of funding not just for military assistance but 
to assist the police and civilian law enforcement as the first 
line of defense against extremists. Some observers have 
recently argued that past cutoffs, which in turn affected IMET 
programs, have seriously harmed our bilateral efforts and have 
made those Pakistani officers not participating in IMET 
increasingly vulnerable to Islamic militants.
    Ambassador Holbrooke, do you see any correlation between 
this and the rising pro-Taliban sentiment within the ranks of 
the Pakistani military? This raises the core question of 
political will, as implicit in proposals to dramatically ramp 
up U.S. foreign assistance. Is it the assumption that 
Pakistan's political class shares the increasing United States 
concern about the threat posed to their own country by Islamic 
radicals? If United States and Pakistani strategic priorities 
are seriously misaligned, then American foreign assistance will 
be of fleeting significance.
    Congress and the Executive Branch must move quickly toward 
a common understanding on the immediate and longer-term 
priorities, the appropriate mix of policy instruments to 
maximize our prospects for success and the timeline for 
implementing the different elements of our strategy. 
Ultimately, if we are to succeed in eliminating safe havens and 
strengthening democracy in Pakistan, it will require steadiness 
of purpose in Washington but perhaps more importantly, 
commensurate commitments by Islamabad.
    Thank you so much, Mr. Chairman, for your time.
    Chairman Berman. The time of the gentlelady has expired. We 
are now going to hear the opening statements from the chair and 
the ranking member of the Subcommittee on the Middle East and 
South Asia, 3 minutes. And then we're not going to have a 
chance for other members to give 1-minute opening statements 
because we want to hear from Ambassador Holbrooke, but you will 
get 5 minutes of questions for Ambassador Holbrooke. And we do 
have a second panel, so I think that is the appropriate 
decision.
    I now yield 3 minutes to the chairman of the Middle East 
and South Asia Subcommittee, Mr. Ackerman.
    Mr. Ackerman. Thank you. Let us say that your pants were on 
fire. You would have to do two things to survive. First, you 
would have to recognize that the agonizing pain that you feel 
was the result of your pants being on fire. And second, you 
would have to do something about it before you lost the ability 
to do something about it. Let me be blunt. Pakistan's pants are 
on fire. That is bad of course, but things are actually much, 
much worse.
    Pakistan's leaders, rather than recognizing and moving to 
address the urgent danger to their constitution and country, 
instead seem convinced that if left alone, that appeased or 
attacked piecemeal, the Islamist flame will simply burn itself 
out. That hope is at best folly. Tragically, neither President 
Zardari nor former Prime Minister Sharif appear to recognize 
the scope and seriousness of the crisis that their country is 
in or of the necessity of setting their personal or party 
political fortunes aside in order to meet the danger.
    President Zardari has said the right things regarding 
counterterrorism, about how to fight against al-Qaeda and the 
Taliban, is Pakistan's fight as well, but in practice, his 
government's response has been slow, weak and ineffective as 
recent events have shown. And while Mr. Sharif's longstanding 
ties to Islamist political parties could enable him to persuade 
the Pakistani public of the need to confront the Taliban, his 
public downplaying of the Taliban threat raises serious 
questions about his commitment to fight the insurgents.
    Whatever the rationale or the reason, the fact is 
Pakistan's political echelon has not yet risen to meet the 
moment. Historically, one could expect that if the political 
situation remains as unstable as it is now and if neither 
leader moves beyond his narrow political concerns that the 
Pakistani military might again emerge as the only institution 
capable of saving the state.
    I fear, however, that this time might be different. Even 
now with insurgents a mere hour's drive from the capital, I 
suspect that among the senior officers of the Pakistani 
military, in particular those with connections to the ISI, 
their bedrock belief still that Pakistan's real enemy is India 
remains untouched by events.
    Pakistan's Government, its military and most importantly 
its people must come to realize that the militants and 
terrorists they nurtured and supported for decades to fight in 
Kashmir and to antagonize India have now turned on them. I and 
many other friends of Pakistan have said again and again that 
the fight against extremists is not just an American fight, nor 
is it solely an Afghan fight. The fight belonged to Pakistan 
before, and it belongs to Pakistan now. I cannot say it more 
clearly. There is a real and present danger to Pakistan's 
survival, but it comes from inside, not outside the country. 
The fire is real and they need to respond.
    Chairman Berman. The time of the gentleman has expired.
    And I am now pleased to introduce our first witness. 
Ambassador Richard Holbrooke currently serves as Special 
Representative for Afghanistan and Pakistan. From 1999 to 2001, 
he served as U.S. Ambassador to the United Nations. As 
Assistant Secretary of State for European Affairs from 1994 to 
1996, he brokered the Dayton Peace Accords, which ended the 
bloody wars in the Balkans. In his long and distinguished 
diplomatic career, Ambassador Holbrooke has also served as 
Special Envoy to Cyprus and the Balkans, U.S. Ambassador to 
Germany and Assistant Secretary of State for East Asian and 
Pacific Affairs.
    I will introduce the second panel after questioning for 
Ambassador Holbrooke has finished.
    Ambassador Holbrooke, it is yours.

   STATEMENT OF THE HONORABLE RICHARD C. HOLBROOKE, SPECIAL 
          REPRESENTATIVE FOR AFGHANISTAN AND PAKISTAN

    Ambassador Holbrooke. Thank you, Mr. Chairman. It is a 
great honor to appear before you as the first opportunity I 
have had to testify before Congress since I assumed my new job, 
but far from the first opportunity I have had to appear before 
your committee. You were kind enough to invite me here as a 
private citizen. You are by my count the sixth chairman of this 
committee I have testified before. In fact it was the first 
committee I ever testified before in 1977. In those days, the 
rules were different and I was asked to testify before I was 
confirmed, but things have changed.
    Mr. Chairman, H.R. 1886 is a step forward in concept from 
previous legislation in previous years. It is focused on the 
right issues. It puts Pakistan in the right construct. It 
responds to the importance of the issue as outlined by both you 
and the ranking member and my friend, Congressman Ackerman, who 
thinks I live in his district because I am next to it. So it is 
good to see you, sir. My actual Congressman, for the record, is 
Jerry Nadler, but I am happy to consider you my second 
Congressman.
    This is a very important part of our effort to build 
correct policy, and with your permission, before I turn to the 
legislation and answer your questions, I would like to outline 
for you and for anyone who is listening what is going on in the 
next 3 days here in Washington, because these are historically 
important meetings and I think we should put them in the 
context. The administration began its term in office with the 
concept we are now all familiar with, that Afghanistan and 
Pakistan were interrelated in such a way so that success in 
either one required success in the other. Sounds simple now, 
but it was not the stovepipe approach that we inherited.
    And as we proceeded with our strategic review and as we 
progressed, things developed. In late February, the Secretary 
of State invited the foreign ministers of Afghanistan and 
Pakistan to Washington and asked them to bring delegations with 
them to begin a trilateral process. That first round of 
trilateral talks was sufficiently successful so that President 
Obama decided to invite President Zardari of Pakistan and 
President Karzai of Afghanistan here to continue the talks at 
the presidential level.
    This unprecedented trilateral diplomacy, including many 
senior members of both administrations, begins today. I will go 
directly from this meeting to meetings with members of the two 
governments. I already met with President Zardari last night, 
and I know that you will be meeting with President Zardari 
later in the day. And I would like to say in the presence of so 
many of your colleagues that that meeting with President 
Zardari this afternoon is an extremely important part of the 
formation of a correct American policy toward Afghanistan and 
Pakistan, and I congratulate you for chairing it. Your 
colleagues on the other side will have a similar meeting at 
lunch on Thursday chaired by Senator Kerry and Senator Lugar.
    The formal meetings will begin tomorrow morning in the 
State Department. Secretary Clinton will meet privately with 
each delegation bilaterally, and then there will be a 
trilateral session in which we hope to produce some useful 
agreements of cooperation. We will then move to the White House 
tomorrow afternoon, where President Obama will follow a similar 
scenario, meeting first with President Karzai and then with 
President Zardari in strict protocol sequence and then a 
trilateral meeting of the two delegations.
    This has not been done before. President Bush did have one 
dinner with the two Presidents when it was Musharraf and 
Karzai, but it resulted in no progress and there was no follow-
on. This is part of a continuing process, and we would like 
your committee and the Congress as a whole to be partners in 
this very important effort.
    It is interesting, Mr. Chairman, to discover that the two 
Finance Ministers have never met each other until they will 
meet tomorrow. The two Agriculture Ministers don't know each 
other. The two Interior Ministers do not know each other. And 
yet for the United States, our most vital national security 
interests depend on cooperation between Pakistan and 
Afghanistan.
    The animosity and misunderstandings between Afghanistan and 
Pakistan did not begin after 9/11 or even when the Soviet Union 
invaded 30 years ago. They go back to independence, partition, 
Pakistani independence, and it is an extraordinarily 
complicated story. We are involved in it because our most vital 
national security interests are at stake. I have heard people, 
including people in this body, compare this to Vietnam. I 
served 3\1/2\ years in Vietnam as a civilian alongside the 
United States military in the Mekong Delta and in the American 
Embassy.
    And then I served another 4 years on Vietnam as a member of 
President Johnson's staff and the Paris Peace Talks. And I 
wrote one volume of the Pentagon Papers. And I want to say to 
you today and to your colleagues as clear as I can that while 
there are obviously structural similarities between the war in 
Afghanistan and the war in Vietnam and in both countries the 
problem of the sanctuary was critical, and the sanctuary area 
is the area we are here to discuss today, the core difference 
is that the Viet Cong and the North Vietnamese Army never posed 
a direct threat to the American homeland.
    The people who are in this area who we are fighting either 
pose a direct threat, having committed 9/11, having done 
Mumbai, having killed Benazir Bhutto, and they have publicly 
said they are going to do more of the same. That is al-Qaeda of 
course and its allies, the Taliban. So we need to be very clear 
that we are talking today about an issue that is of direct 
importance to our national security.
    Now, in regard to H.R. 1886, this is a very big improvement 
on previous legislation. It vastly increases the economic 
assistance, it segments economic and military, the 
accountability provisions that you referred to apply as I 
understand it only to the military portion, a point which has 
been lost in the debate over it, and there are many other 
things in it that we greatly appreciate. And I want to thank 
you, Mr. Chairman and your colleagues, particularly the ranking 
minority member, for their bipartisanship in putting this bill 
together. It is very important and we hope that it will be 
passed and that the differences with the House and Senate 
versions will be reconciled.
    Having said that, I also wish to echo what Secretary of 
State Clinton said when she was asked about the accountability, 
and that is that we should be careful that we look for a sweet 
spot that is acceptable. Now let me be clear here, the goals 
that you lay out in the accountability section are goals that 
we by and large share. But there has been a misunderstanding in 
Pakistan about motivation and about how this works. And so we 
would like to work with you, and I believe in this regard, Mr. 
Chairman, your meeting this afternoon with President Zardari is 
very important, arguably more important than this hearing. We 
would like to work with you and with the Pakistani Government 
to find that sweet spot that Secretary Clinton referred to.
    In conclusion of my opening remarks, let me ask your 
permission to submit my formal opening statement for the record 
and to thank you very much, really deeply and personally, for 
your leadership in this most important issue. Thank you.
    [The prepared statement of Mr. Holbrooke 
follows:]<greek-l>Holbrooke deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Well, thank you, Ambassador, and without 
objection, your entire statement will be included in the record 
of this hearing.
    And I will yield myself 5 minutes. In the last few weeks--
and some of us were actually there in Pakistan when this was 
starting--we have heard a stream of dire reporting from 
Pakistan and statements from administration officials regarding 
the situation in Pakistan. It is unquestionably a critical one.
    I am aware that the main institution in Pakistan, the 
military, remains intact, and that there are concerns among the 
Pakistani press that the United States is lending an air of 
panic to the situation. Talk to us for a moment about how 
critical the threat is and what efforts we are undertaking to 
communicate United States intentions to address the threat 
directly to the Pakistani people.
    Ambassador Holbrooke. You know, the relationship between 
the United States and Pakistan, which goes back to the birth of 
Pakistan as an independent nation, is a complicated 
relationship between allies who have often misunderstood each 
other. I make that comment when you use the phrase ``U.S. 
lending an air of panic'' or ``contributing to an air of 
panic'' about the situation.
    Chairman Berman. According to the Pakistani press.
    Ambassador Holbrooke. Yes. And so we actually had a kind of 
an echo chamber situation. If you analyze it, and it is worth 
looking at for a minute, we spent a lot of time on this, Mr. 
Chairman. We have had extensive meetings in the State 
Department, the White House, trying to make sure that people 
understand exactly what we are saying. When Swat fell and the 
deal was made, the concern that was expressed was not initially 
in the United States. It was among the people of Peshaware and 
Lahore and Islamabad, who understandably felt threatened.
    Swat is not just another location, it is a very symbolic 
location. It is not part of the tribal areas, it was a vacation 
place. I like to point out to my New York friends that it is 
the same distance from Manhattan as East Hampton is from New 
York, and it bears the same psychological relationship to the 
people of Islamabad as a vacation spot, although real estate 
prices were not quite as high.
    Chairman Berman. And we won't talk about the parties.
    Ambassador Holbrooke. No, please. But all joking aside, the 
fall of Swat created an air of panic not in the United States 
initially but among certain people in Pakistan. Even in India, 
I found people who recalled their vacations in Swat and were 
stunned by its fall. That then came back to the United States. 
People going out to Pakistan, including Members of the 
Congress, came back and made strong statements. Private 
citizens made strong statements. One very well-known 
counterinsurgency expert, not a member of the U.S. Government, 
not a consultant, said they had a matter of months before they 
might hit the wall.
    And this began to create a ricochet effect. And so without 
anyone intending it, honest, well-intentioned statements of 
concern became interpreted as predictions. And the press 
magnified this. I am not actually blaming anyone. I am not 
blaming the people who made the statements. They were pro-
Pakistan. I am not blaming the press. They were reporting them. 
But it really took off as a story. And in that atmosphere, 
President Zardari arrived in town yesterday, and he raised this 
issue with me immediately. And let me say frankly to you I 
understand his concern and we all understand it.
    So, with your permission, Mr. Chairman, let me make very, 
very clear why he is here and what our goals are in Pakistan so 
that we can try to dispel a self-fulfilling sense of what 
Congress Ackerman called the ``Pants on Fire Syndrome.'' Now he 
said the pants really are on fire, and I understand exactly 
what he said, but I also think it needs to be put in the 
perspective of what we are trying to achieve. I would submit to 
you that Pakistan is of such immense importance to the United 
States strategically and politically that our goal must be 
unambiguously to support and help stabilize a democratic 
Pakistan headed by its elected President, Asif Ali Zardari.
    I read in the newspapers that the administration is 
distancing itself from President Zardari in favor of his 
leading political opponent, Nawaz Sharif in the Punjab. That is 
simply not true. We have not distanced ourselves from President 
Zardari. If we were, why would President Obama have invited him 
to Washington today? Why would we be here today talking about 
additional money for his government? However, we do have 
relations with Nawaz Sharif and his brother, who is the Chief 
Minister of the Punjab, just the way we have relations with let 
us say David Cameron, the leader of the opposition in Great 
Britain.
    The point that needs to be underscored here is that we have 
the highest strategic interests in supporting this government. 
That is what H.R. 1886 is about, and that is what our 
administration is trying to do. And we should not allow 
comments about how serious the issue is to be confused with 
predictions of a collapse. We do not think Pakistan is a failed 
state. We think it is a state under extreme test from the 
enemies who are also our enemies, and we have, Mr. Chairman, 
the same common enemy, the United States and Pakistan.
    Chairman Berman. My time has more than expired. I didn't 
mention, and I should, that I will recognize people for 5 
minutes. It will include their question and your answer.
    And I now yield 5 minutes to the ranking member.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman. Thank you, Mr. 
Ambassador.
    How would you describe Pakistan's commitment to rooting out 
militant groups? To what extent is Pakistan leery of taking on 
this challenge for two reasons, its strategic concern with 
India and a perception that such a campaign either cannot be 
won or is actually against Pakistan's interests? Related to 
that, does the current situation in Pakistan make you any more 
concerned about the safety and security of the nuclear weapons, 
particularly the prospect of a radicalized military and the 
possibility of an inside job, meaning the seizure of some part 
of the arsenal by anti-American radicals within the Pakistani 
armed forces?
    And thirdly, since we have limited time, if Americans are 
worried about Pakistan turning into a failed state, and I agree 
with you it is not a failed state, our friends in India ought 
to be extremely concerned. And I was interested in your 
comments on this question, in your discussion with leaders in 
India about the situation in Pakistan, how would you assess 
their level of concern? Thank you, sir.
    Ambassador Holbrooke. The first point was which? I got the 
second and third.
    Ms. Ros-Lehtinen. The commitment of Pakistan in rooting out 
these militant groups. Are they hesitant because they think 
that they can't do it or because of the problems that they have 
with India?
    Ambassador Holbrooke. On your first point, we have long 
felt that our friends in Pakistan could put more resources into 
the struggle in the west. They have been reluctant to do so 
because of their longstanding concerns and past history with 
India. And we will continue to press on that. In the interest 
of time, let me just say on the nuclear issue, most of this 
needs to be discussed in closed session. It is not an issue I 
have personally concentrated on because there is such an 
overwhelming agenda on other issues. I have followed it. I 
would be happy to discuss it further in closed session and 
bring with me the experts.
    On the last issue, thank you for saying that Pakistan is 
not a failed state. It is very important that people get away 
from easy and attractive journalistic cliches. It just isn't. 
But it is a state under enormous social, political and economic 
pressures, and India is always a factor.
    Finally, I want to be clear that when I talked about H.R. 
1886, your bill, I greatly appreciate its motives, but I do 
want to be sure that I am preserving the fact that there are 
things in it which Secretary Clinton and I and my colleagues do 
want to work with you on to be clear, and as we have talked 
privately, there are other bills moving forward on the 
Appropriations side.
    And I want to underscore the point made in this morning's 
Washington Post by Ahmed Rasheed in the article, ``Pakistan's 
Critical Hour,'' which I hope would be well read and perhaps it 
could be even inserted for the record.
    Ms. Ros-Lehtinen. Thank you, Mr. Ambassador, just because 
we have such limited time. Would you say that, related to the 
Indian leaders and their perception of Pakistan, in your 
discussions with them, how do they see that playing out for 
them?
    Ambassador Holbrooke. The Indians? Ever since I took this 
job, India has been in an election campaign. They are voting 
right now. There are 700 million people voting. They have been 
listening, they have been very interested, but they have not 
taken any clear positions at this point. The elections will be 
finished in less than 2 weeks, and I look forward to returning, 
and then I would be happy to return and give you a better 
answer. But let me just say one thing. They really do share the 
understanding that what is happening in western Pakistan is of 
direct concern to them.
    The Indians have been public in saying they are not happy 
with the cooperation they got after the Mumbai attacks, we all 
know that. I believe that for the first time since partition, 
India, Pakistan and the United States have a common threat, a 
common enemy and a common task. And I hope that after the 
elections and after these bills that are working the Hill work 
their way through that we will be able to move to more of a 
consensus that a common threat requires common actions. But 
there are a lot of moving parts here.
    Ms. Ros-Lehtinen. Sir, and we certainly understand that you 
endorse that bill. You don't need to plug it in in every 
answer. We get it. Thank you.
    Good job, Mr. Chairman.
    Chairman Berman. Well, since the ranking member has 
committed your administration's endorsement to my bill, I will 
commit that as soon as we can we will get together with members 
of the administration to discuss in the terms of both the 
Secretary and you finding the sweet spot.
    Ambassador Holbrooke. Thank you.
    Chairman Berman. And Mr. Ackerman is recognized for 5 
minutes.
    Mr. Ackerman. Thank you very much. Very good to see you 
again, Mr. Ambassador, and congratulations.
    The proposed sale of the new F-16 to Pakistan, will they be 
using that to fight the terrorists?
    Ambassador Holbrooke. You are talking now about the new 
planes or the midlife upgrades? What are we specifically 
referring to?
    Mr. Ackerman. The F-16 CD Block 50/52s. Combat aircraft, 18 
new ones.
    Ambassador Holbrooke. The 18 new ones. First of all, as you 
know, the midlife upgrades are moving forward with $142 million 
of payment. And they have to pay for these. I am told by F-16 
pilots that an F-16 with modern avionics can be used as a 
counterinsurgency tool, but quite honestly, it requires very 
sophisticated training. They did use the aging F-16s in their 
battles in Bajur Valley and in Swat. But they can only be used 
in daylight and with good visibility. They can't be used at 
night. So we have not come to a final decision on how to 
proceed with this, and I know your body is looking at it very 
carefully. Right now we have approved the midlife upgrade, so 
they will be able to convert planes to counterinsurgency use.
    Mr. Ackerman. What can you tell us in this open session 
about the ISI and their double-game strategy, as some people 
have called it, in cooperating with terrorist elements? And I 
know it is not the whole ISI but possibly just corrupt elements 
or individuals within it.
    Ambassador Holbrooke. Ever since I began working on this 
difficult issue, I have been well aware of the allegations to 
which you refer, and we have looked into them very carefully in 
the first 100 days of this administration. I have had lengthy 
talks with the director of ISI, General Pasha, who is in 
Washington today and who I hope will get a chance to meet with 
some of you. General Pasha wishes to state and would tell you 
if he were here that ISI does not do these things anymore.
    But he does not deny, nor does anyone else, that in the old 
days ISI and the American intelligence services worked together 
to set up some of the organizations which have now turned 
against the United States, and there may be some serious legacy 
issues. It concerns me greatly, and we need to put the most 
heavy possible pressure on our friends in Pakistan to join us 
in the fight against the Taliban and its allies. We cannot 
succeed in Afghanistan without Pakistan's support and 
involvement, and that means working with the Army and the 
intelligence services in that regard.
    Mr. Ackerman. Inasmuch as you brought up putting pressure 
on our friends, how much pressure should we put on them to give 
us access to A.Q. Khan?
    Mr. Chairman, could we just ask those people passing those 
signs around to put them down? They are distracting.
    Chairman Berman. Will the gentleman please put down his 
sign? That is inappropriate in the committee hearing room. And 
I would ask the gentleman if he would like to leave the room? 
Otherwise, he will remain quiet.
    Mr. Ackerman?
    Mr. Ackerman. Yes, thank you, Mr. Chairman.
    If the Ambassador would continue?
    Ambassador Holbrooke. The A.Q. Khan, I find it hard to 
understand, and I said publicly as a private citizen I found it 
inexplicable, that A.Q. Khan was not immediately made available 
to the United States. We had no access, and I just don't 
understand it, quite frankly, given the immense amount of 
damage he did.
    Mr. Ackerman. But that was history and the previous 
administration.
    Ambassador Holbrooke. I know. I understand.
    Mr. Ackerman. What do we do now? He is still there, he 
still knows what he knows, and we still don't know what we 
don't know.
    Ambassador Holbrooke. I have raised it with the Pakistani 
Government. Their response is, you know, this happened under 
the previous governments.
    Mr. Ackerman. But the guy still has the ability to talk and 
give us information.
    Ambassador Holbrooke. I understand, Congressman.
    Mr. Ackerman. And if it is a good idea, should we make 
those F-16s conditional on talking to him to find out to what 
extent he might have given technology or material to terrorist 
organizations or failed states or what have you?
    Ambassador Holbrooke. I do not think that linkage will help 
either half of the equation. But I certainly share your 
concern. I raised it on my first trip there, I raised it 
publicly, I will continue to raise it. But I just think that 
the linkage would work against both issues. But I understand 
the importance of it. I share your view.
    Mr. Ackerman. Does the civilian Government of Pakistan have 
control over the military?
    Ambassador Holbrooke. The military in Pakistan has a long 
tradition of serving within the government but having its own 
role. There are other countries like this.
    Mr. Ackerman. But the government still has a strong 
tradition of being overthrown by the military.
    Ambassador Holbrooke. Well, that is another matter. We are 
strongly opposed to any such event, Congressman Ackerman. We 
have made that unambiguous and clear to all parties publicly 
and privately. The chairman of our Joint Chiefs of Staff, 
Admiral Mike Mullen, is in constant contact with his Pakistani 
counterparts on this issue, and we think this would be a 
terrible event. Over half of Pakistan's history since 
independence they have had military rule.
    Chairman Berman. The time of the gentleman has expired.
    And the gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    Mr. Ambassador, I wish you well and I am very pleased that 
you were selected and have gone about this incredible task that 
you have. And just as pointed as my questions will be, do not 
think that I am not rooting for you to succeed in your job.
    Ambassador Holbrooke. Thank you.
    Mr. Rohrabacher. First of all, let me note that I do agree 
with the chairman of the subcommittee. I would suggest that it 
is time for us to get real with Pakistan, and to the degree 
that over my career we have bent over backwards historically 
for this last 30 years to sort of not to come to grips with 
some real issues, and thus we have let things fester and it has 
gotten progressively worse. So it is time for us really to lay 
down a standard and say what is reality here.
    And if there are leaders in Pakistan who oppose our getting 
to the real facts concerning A.Q. Khan, then those people are 
not our friends. The bottom line is something of that 
significance, of that magnitude, if the leaders of Pakistan are 
not permitting us to have the type of accountability for this 
individual and what has been done, then frankly those people 
are not our friends and do not deserve the type of support that 
we are trying to give them just for the record. If you have a 
disagreement with that, please go straight ahead.
    Ambassador Holbrooke. The issues that you and Congressman 
Ackerman raised should have been dealt with at the outset. A 
decision was made by another group of American officials not to 
raise them. A new administration came to office on January 2 
facing a different set of problems. I raised A.Q. Khan 
immediately upon my being in Pakistan and I will continue to 
raise it. But the issue that Congressman Ackerman raised, and 
it is a very important one, is whether we should condition our 
own strategic interests, he linked it to the F-16s, but you 
have made it an even broader issue, to this issue.
    At this time, there is no evidence that he is actively 
engaged in these things anymore. It would be enormously 
valuable to know what he did. The ice has frozen over this 
issue in a sense. I would love to crack it open. But, 
Congressman, as we speak and as Chairman Berman pointed out at 
the beginning, the enemy of our nation as well as Pakistan is 
active in the field not too far from the capital. We need to 
help Pakistan, and we need to weigh the help against the 
accountability issues. Let me define the right balance.
    Mr. Rohrabacher. I am running out of time too, and let me 
just note that if Pakistan is unwilling to work together with 
us on something as significant as the nuclear weapons perhaps 
in the hands of terrorists who might do harm to the United 
States, well, then they do not deserve our help. Let us make it 
very clear. If a nuclear weapon goes off in the United States 
and it is because we have not followed through with what this 
Khan character has been doing with other radical Islamicists, 
well, then we have not been doing due diligence to our own 
people.
    You were in Vietnam, and at that time and you mentioned 
that, the support for the Vietnamese battle against us was 
Russia and China. We are now at war with radical Islam in 
Pakistan and Afghanistan in particular. Where are the radical 
Islamicists who are fighting this war against us getting their 
financial support to maintain this struggle?
    Ambassador Holbrooke. The other elements in other countries 
have been sending money to the Taliban and al-Qaeda.
    Mr. Rohrabacher. Does that include Saudi Arabia?
    Ambassador Holbrooke. It includes people in Saudi Arabia. I 
don't have any evidence it includes the government, but 
certainly money is flowing into what you might call the bad 
guys from the Gulf, from Pakistan and from other places in the 
world under the Hawala system, under hand-carried money. We do 
not have a program to close that down now. We are working on it 
actively. Our most senior officials have a task force that is 
trying to address this, and it is very high on our list.
    Mr. Rohrabacher. Good luck in that operation, and also I 
hope that we are going to do the drug challenge as well.
    Chairman Berman. The time of the gentleman is expired.
    The gentleman from Florida, Mr. Wexler, recognized for 5 
minutes.
    Mr. Wexler. Thank you, Mr. Chairman.
    Ambassador, we welcome you here as well and are rooting 
very much for you also. Recently Deputy Secretary Lew and 
Deputy Secretary Steinberg came before our committee and 
presented the administration's new plans for Afghanistan. And 
if I understand it correctly, in a nutshell, it calls for 
17,000 additional troops in southern Afghanistan and an 
additional 4,000 troops on top of that.
    Ambassador Holbrooke. Trainers.
    Mr. Wexler. Yes. You very eloquently talk about the 
interdependence of our Afghanistan and Pakistan policies and 
the interrelationship between Afghanistan and Pakistan or the 
lack of interrelationship. Could you share with us what the 
anticipated repercussion the anticipated goal of the additional 
troops in Afghanistan will be with respect to Pakistan? And can 
you also share with us in terms of al-Qaeda's two senior 
leaders, bin Laden and Zawari, what role do we believe them to 
be playing, if we know, in terms of the current circumstances 
in Pakistan? And finally, what role, if any, is Iran playing? 
And is there a potential for cooperation possibly with respect 
to Iran in terms of resolving the crisis in Pakistan?
    Ambassador Holbrooke. On your first question, Congressman 
Wexler, I believe the troops will make an enormous difference. 
They are going into a very difficult area. They are well-
prepared for it and well-led. I know the commanders. They will 
displace the Taliban as long as they are there. The real test 
is can they transfer that responsibility to local security 
forces over time. As they progress, I think we can expect 
elements of the Taliban, some will fade back into the villages 
like all guerrillas do, and others will go east into Pakistan 
toward the Baluchistand area, and that is an issue that has to 
be addressed.
    On your second point on Osama bin Laden, you wanted to know 
what their role was vis-a-vis the Taliban?
    Mr. Wexler. Vis-a-vis the circumstances in Pakistan today, 
do we have any information in terms of what role they are 
playing?
    Ambassador Holbrooke. In Afghanistan?
    Mr. Wexler. No, in terms of what is happening in Pakistan.
    Ambassador Holbrooke. I am sorry, I misunderstood. In 
regard to al-Qaeda, I think it is very well-described in an 
article in this morning's New York Times where a Taliban 
spokesman said we do the local war against the Americans, al-
Qaeda does the global war.
    And finally, on your question about Iran, very interesting 
point. There have been two major conferences in the last month, 
March 31 in The Hague on Afghanistan, April 17 in Tokyo on 
Pakistan. The latter was a pledging conference. The Iranians 
attended both in The Hague at the Vice Foreign Minister level 
and in Tokyo on Pakistan at the Foreign Minister level.
    And in Tokyo, they pledged $330 million to the 
reconstruction effort for Pakistan. Quite an interesting thing 
to do. They could have done it bilaterally, they could have 
done it in some other method. And the speech that the Foreign 
Minister gave was one in which he outlined policy goals that 
were similar to ours. Now we have vast and important 
differences with Iran on nuclear weapons, Hamas, Hezbollah, 
Israel and many other critical issues, but here is one area 
where there seems to be a strategic similarity.
    They don't want the Taliban whom they hate to succeed. They 
have vested interests on their eastern border. Hazrat is a city 
with very old historic cultural links to Iran. Their drug flow 
into Iran has caused a massive drug addiction problem. And so 
it looks to me like for reasons that don't make them nice guys 
but just are facts they are looking at this area as an area 
where instability would be adverse to them.
    Mr. Wexler. Thank you very much.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from California, Mr. Royce, is recognized for 
5 minutes.
    Mr. Royce. Thank you, Mr. Chairman.
    And welcome, Mr. Holbrooke. I joined Chairman Berman on his 
delegation to India and Pakistan, and I had an opportunity 
there to talk to General Kiyani about the insurgency that is 
occurring and building in the Swat Valley, the tentacles that 
are going out from Swat. One of the quick observations I would 
make is that Abdul Aziz was released, this is the individual 
from the Red Mosque who had led so many young suicide bombers 
to commit attacks in the Punjab and in the capital, and he was 
out publicly preaching jihad and an overthrow of the government 
because Supreme Court Justice Chaudhury had released him.
    And as we look at the situation of the graduates coming out 
of the madrassahs, the New York Times said yesterday two-thirds 
of the suicide bombers in Punjab have attended those schools. 
My question would be, is there the will in Pakistan to put in 
place a curriculum that isn't hostile? And is there the will to 
defeat the insurgency in Swat?
    On the radio front, you have raised the point, Ambassador, 
that like with Rwandan hate radio we have the Taliban radio, 
150 illegal radio stations. I would ask on the jamming 
equipment, what is the status? I know you have been working to 
try to get that jamming assistance to the Pakistani Government.
    Ambassador Holbrooke. Big issue for us.
    Mr. Royce. A couple other questions I would just leave you 
with. One, you mentioned trade, and I want to encourage you on 
that front because I think giving Pakistan greater market 
access could do more good than aid, that frankly we have a 
limited capacity to implement. So, if it is a real trade and 
real engagement, you might have to take leadership on this. I 
think the Van Hollen approach is kind of unrealistic, but that 
might help civil society there.
    The last point I would like to ask you about is on Afghan 
contracting, because that process in the country is really a 
mess. There is quite a bit of blowback. Corruption is rampant 
there, and the resentment that that creates among Afghans is a 
problem. And I think this is compounded when a foreign firm, 
take one example, Turkish firm brings in Turkish labor, doesn't 
hire Afghani labor, that does not build Afghani capacity.
    So it is very hard for American firms of course to compete 
in this corrupt environment, and I think from community leaders 
here in the Afghan community, we have many engineers in the 
Afghan community who would like to go back, get engaged, hire 
Afghans obviously in order to build capacity there, and I think 
there is something you could directly do on that front which 
would help turn that around. But if I could ask your responses 
on some of those questions?
    Ambassador Holbrooke. Very limited time, a lot questions.
    Chairman Berman. 2 minutes and 20 seconds.
    Ambassador Holbrooke. 16 seconds, Mr. Chairman.
    The Afghan contracting issue, I agree fully with you. But 
let us not limit it to competition with Turks. We have got a 
lot to answer for here ourselves. You know that only about 10 
percent of American assistance in Afghanistan goes through the 
government. So I want to increase that to at least 40 or 50 
percent because we are trying to build up Afghan capacity and 
we are undermining it by that process. And this is one of the 
things we discovered as we did our due diligence of what we 
inherited.
    I would like to however use the remaining 1 minute and 36 
seconds to ask you about the ROZs. I like Van Hollen's 
legislation. I publicly supported it. And I know there are 
differences between the Senate and the House versions, but it 
is a very important idea. Congresswoman Ros-Lehtinen talked 
about it in her opening remarks. I share her comments. Perhaps 
I could just get a sense of why you disagreed with it.
    Mr. Royce. I think that requiring American fabric in this, 
you know, you and I worked on the African Growth and 
Opportunity Act to try to create economic growth.
    Ambassador Holbrooke. I remember.
    Mr. Royce. We doubled trade between Africa and the United 
States. In my view, attempting to micromanage this with 
American fabric, as I have made the observation, we are going 
to have limited ability to have an impact with the aid that we 
do give. But in terms of trade, we are going to have a capacity 
to build civil society there, create jobs, and if we do that in 
tandem with education and getting people out of madrassahs and 
into public education, which was once the case until the 
government made the decision to put all the money into 
armaments, then I think we are confronting some of the problems 
long-term that might turn things around.
    Ambassador Holbrooke. I understand. As long as we agree 
that the general concept is correct, that is what I wanted to 
understand. Because it is up to you to work out the details, we 
want some legislation, it is really of high symbolic 
importance.
    Mr. Royce. Ambassador, is there the will in the Swat Valley 
for the government to go in and get control of the situation?
    Ambassador Holbrooke. The government went back in 
yesterday, and this morning the deal broke down. President 
Zardari had always predicted this would happen. The first thing 
he said to me last night was I told you this deal wasn't going 
to work. Remember, Zardari had opposed it and he was forced to 
agree to it. So his answer to your question is the Army is 
going back in as we speak.
    Mr. Royce. Thank you, Ambassador.
    Chairman Berman. The time of the gentleman is expired.
    The gentleman from Virginia, Mr. Connolly, is recognized 
for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    And welcome, Ambassador Holbrooke. It is good to see you 
again. It is my understanding that over the last 7 years we 
have provided about $12 billion in aid to Pakistan for military 
equipment and military training and resources. And yet 
Pakistani Army Chief of Staff General Pervez Kiyani said his 
troops do not have the necessary equipment to fight the 
militants. Given just the level of our aid, how is that 
possible? What is going on in Pakistan that they have 
inadequate resources to fight the militants?
    Ambassador Holbrooke. Very simple, Congressman Connolly. 
The aid went for the wrong sort of assistance. They didn't get 
night vision goggles, they didn't get helicopters. Secondly, 
their own existing helicopter fleet is very inadequately 
maintained, and we want to help them with that too. Third, 
there wasn't a sufficient effort made to encourage a 
reconfiguration of the Army for counterinsurgency. Fourth, 
events between India and Pakistan always kept a larger number 
of troops in the east than in the west.
    You are now addressing the core point which any military 
analyst would say has to be fixed. Otherwise, you end up in a 
Whac-A-Mole situation where you can fight them in Bajur and 
they will appear in Swat. You can fight them in Swat and they 
will be in Waziristan. There are not adequate numbers of troops 
in my view in the west. I think that my colleague, General 
Petraeus, would say exactly the same thing.
    Mr. Connolly. Do we have an understanding, Mr. Ambassador, 
or growing understanding with the Pakistani Government that 
that needs to be corrected?
    Ambassador Holbrooke. There is no question, Congressman 
Connolly, that recent events have increased the readiness of 
both sides to address that problem. Whether it is sufficient or 
not will be determined partly in the next few days. General 
Kiyani, however, is not here. He is back in the country, where 
he should be, directing these military offensives. But other 
senior military officials are here, and Admiral Mullen is 
practically commuting to Pakistan, I will be going back next 
week, your own chairman was just there. I think every 
discussion we ever have, this is sort of like the number one 
issue.
    Mr. Connolly. Because it just seems to me if we are going 
to have confidence in providing more aid to Pakistan in this 
hour of need, we have to have some assurances it is not just 
going to go to further the buildup and reinforce the capacity 
vis-a-vis the perceived threat from India.
    Ambassador Holbrooke. I agree with that, and I think that 
can be shaped by the nature of the aid.
    Mr. Connolly. Let me ask you also, Mr. Ambassador, since 
President Zardari is here in town and I know you are meeting 
with him, looking at some events in Pakistan, it is a little 
unclear to us I think sort of who is responsible for what, but 
certainly some decisions have been made by the Pakistani 
Government. These aren't things that were done to them, they 
are decisions that they made. There was a decision to release 
the Imam of the Red Mosque, Abdul Aziz, who then went on 
television and talked about the need for national Sharia.
    Similarly an Imam from Swat was given air time on 
television saying the same thing. The deal with Swat's passive 
understanding, did not the Pakistani Government understand what 
a potential threat that would pose to their security and to our 
bilateral relationship? What is your sense of the Pakistani 
understanding of those or at least the reactions to those 
events, and is there some reassessment going on within the 
Pakistani Government about perhaps the wisdom of making such 
agreements?
    Ambassador Holbrooke. Well, there is no way I am going to 
defend the release of the Red Mosque leader, but it was not 
done by the government, it was done by the Judiciary. And 
Pakistan has an independent Judiciary, and that was in fact the 
cause of the great political struggle against Musharraf and the 
considerable political disagreement in mid-March between the 
two leading political figures in the country. So I share your 
views, I share your concern.
    The radio stations, I will repeat what I said earlier to 
Congressman Rohrabacher and Congressman Royce, it is 
inexplicable to me that we didn't have a program to deal with 
this. You know, these are low frequency FM stations on the 
backs of motorcycles and pickup trucks wandering around Swat 
with no counterprogramming. We should be suppressing this and 
we should be following up with the proper messages. It is a 
little bit like Rwanda, Mr. Chairman, they are announcing who 
they are going to behead and they are terrorizing people. And 
the bills that are before you include funds to deal with this 
problem. It is one of the reasons it is so important.
    Mr. Connolly. My time has expired.
    I want to thank the Ambassador.
    Chairman Berman. The gentleman from Texas, Mr. Paul, is 
recognized for 5 minutes.
    Mr. Paul. Thank you, Mr. Chairman.
    Welcome, Mr. Ambassador. I have a couple concerns I want to 
express. The main concern I have is I was hoping to see maybe a 
change in our foreign policy from the last administration, but 
of course we see just more of the same. More nation-building, 
more policing of the world, more involvement, and it just seems 
like we never learn from our past mistakes. We don't learn from 
what kind of trouble the Soviets got into, and yet we continue 
to do the same thing.
    And even your last statement, it is a grandiose goal; we 
want to work for a vibrant, modern democracy, wow, what a 
dream. But think of how we are doing this. I mean, we label 
everybody that oppose what we are doing, we call them Taliban, 
and all of a sudden there are many, many thousands of Pashtuns 
that are right smack in the middle getting killed by our bombs 
and then we wonder why they object to our policies over there.
    This to me means that we are into this for the long haul, 
and it is going to cost a lot of money, and it is going to cost 
a lot of lives. And if the Members of Congress had ever 
realized what Iraq would end up costing us in the number of 
deaths, in the number of dollars, now $1 trillion, they would 
have been a little more hesitant, they admit that even now, 
well, maybe we shouldn't have. But who knows what this is going 
to end up costing in terms of lives, and the odds of it working 
are so slim.
    This is what my great concern is. You know, in 1999, Sharif 
was the Prime Minister, and we were supportive of the military 
coup, and Musharraf comes in and we support him. So now it is 
said that we will have relationships with Sharif, which 
everybody knows exactly what that means, it means that we are 
involved in their elections, that is the way we have done it 
for so many years. But the Pakistani papers report it as ``U.S. 
taps Sharif to be the next Pakistani Prime Minister.''
    Now whether or not we literally can do that, I think we can 
have a lot of influence. That is what they believe in. How do 
you win the hearts and minds of these people if we are seen as 
invaders and occupiers? And here we are just doing nothing more 
than expanding our role in Pakistan and in Afghanistan. I don't 
see any end to it.
    But my particular question is this. It has to do with the 
Pashtuns that have been killed. I mean, we are bombing a 
sovereign country. Where did we get the authority to do that? 
Did the Pakistani Government give us written permission? Did 
the Congress give us written permission to expand the war and 
start bombing in Pakistan?
    Why do we as a Congress and as a people and as our 
representatives in the Executive Branch just so casually and 
carelessly expand the war and say, well, today we have to do 
this, we will worry about tomorrow? What about our national 
debt? We have $1.8 billion national debt facing us, we think 
nothing, oh, $3.5 billion, which will turn out to be tens of 
billions of dollars after this. So I would like to know where 
you stand on this, the innocent killing of Pashtuns, are they 
all Taliban or are there some innocent people being killed?
    Ambassador Holbrooke. Congressman Paul, I did not say 
exactly what you imputed to me, but I have thought a long time 
about the issues you raise. And you mentioned Iraq. Afghanistan 
and Pakistan is not Iraq. The reason we are in this area, 
notwithstanding its immense difficulties, is because the people 
in this area attacked our country on September 11, 2001 and 
have stated flatly they intend to do it again. They have done 
all the other things we mentioned earlier. And therefore, it is 
not Iraq and it is not Vietnam, despite the fact that many 
people say it is. It is about defending our country.
    It is not easy, I agree with you. It is not cheap. And 
having seen wars on three continents, having been shot at for 
my country, I sure don't feel comfortable where you ask brave 
young American men and women to risk their lives and sometimes 
pay the ultimate sacrifice. However, the President of the 
United States reviewed everything in regard to this and came to 
the conclusion, not that it is the same policy. We spent the 
whole meeting today talking about differences. And there are 
dozens of others. It is not the same policy, but our goal has 
to be to defeat al-Qaeda. You cannot let them take over an even 
larger terrain, move into other parts of the world and then 
plan what they are planning in my view.
    Chairman Berman. The time of the gentleman has expired.
    And the gentlelady from California, Ms. Woolsey, is 
recognized for 5 minutes.
    Ms. Woolsey. Thank you, Mr. Chairman.
    And thank you, Mr. Ambassador. President Obama recently 
expressed grave concern about the situation in Pakistan, 
offering that the very fragile civilian government there does 
not appear to have the capacity to deliver basic services to 
the Pakistani people. He further stated that this lack of 
capacity makes it difficult for the government to gain the 
support and loyalty of its people.
    So I am asking you today, to what extent to you agree with 
this assessment, and what new actions by the U.S. Government 
might help, and where is the place for smart power, investing 
in humanitarian needs and infrastructure, economy, food, so 
that we can shore up the people? I believe we can do that and 
at the same time, you can correct me if you don't think this is 
appropriate, hold the government accountable.
    Ambassador Holbrooke. Thank you very much for the question. 
Smart power, which by the way is a phrase originated by a 
person who used to work for me at the U.N., Susanne Nossel, is 
exactly what this bill is trying to do. It is something we 
should have done a long time ago. It is using American 
resources in these areas that go beyond military activities. 
But, and I know this is difficult for some people, it has to be 
married up to the use of force and the search for security. And 
we are using every piece of leverage we have to encourage 
Pakistan to work with us in Afghanistan and close its own 
border and deal with its own problems.
    Ms. Woolsey. Well, Mr. Ambassador, if the ratio to smart 
investment is 1 to 10, with the 10 being military investment, I 
don't know how we get where we are going.
    Ambassador Holbrooke. I don't think it is 1 to 10 anymore. 
It was, and if you look at the figures that this committee 
authorized and your body appropriated for Pakistan, the ratio 
over the last 10 years, it is pretty hard to understand. But 
this bill is one of a number of bills now in the Congress to 
correct that, and that is why I am here, to say that although 
we have differences with some provisos, we think that this is a 
major step in the right direction.
    Ms. Woolsey. Well, with Pakistan being a nuclear weapons 
state, how does that change our interactions? I mean, how 
complicated does that make the relationship to move to smart 
power?
    Ambassador Holbrooke. I think that prior to your arrival we 
discussed that a bit, and I offered to discuss the issue in 
more detail with the experts in a private session. But it is of 
immense concern to anyone in the world who cares about 
stability when any country starts building up a nuclear 
arsenal. That does not change the fact that in the western part 
of Pakistan are people who attacked the United States on 9/11 
and have stated publicly and repeatedly they intend to do so 
again. And I for one take them at their word, and that is why 
we are here today.
    And somebody earlier, I think it was Congressman Paul, used 
the word ``nation-building.'' We are not nation-building. 
Pakistan is a nation. We are helping them strengthen themselves 
against their enemies. Another one of your colleagues talked 
about the madrassahs, another example of a missed opportunity. 
The madrassahs grew up with outside funding from the Gulf, and 
as the New York Times article by Sabrina Tavernise in 
yesterday's paper front page clearly points out, a brilliant 
article, the students there are fodder for suicide bombing 
missions. And there was no counterprogramming. That is what you 
mean by ``smart power,'' that is what the administration I am 
proud to be part of means by ``smart power.'' That is what this 
bill addresses.
    Ms. Woolsey. Well, do you see a pathway for Pakistan to 
become a partner for nonproliferation other than just telling 
them they can't use what they have and that they work with us 
and we work with them and the rest of the world toward 
nonproliferation?
    Ambassador Holbrooke. I don't know. A very good question. 
We are wrestling with that and its related issues now. A very, 
very fair and good question.
    Ms. Woolsey. Thank you very much, Mr. Ambassador.
    Ambassador Holbrooke. I want to be clear, Mr. Chairman. 
What I don't know is the precise answer to, can they be a 
partner in nonproliferation? It is not like we don't know 
anything about this.
    Chairman Berman. I understand, and the record should so 
reflect.
    The gentleman from Texas, Mr. McCaul, is recognized for 5 
minutes.
    Mr. McCaul. And I thank the chairman.
    Thank you, Ambassador, for being here and your service. I 
commend you on your testimony that this is the number one 
issue. I think for too long this area has been left unfettered, 
and I believe the tribal areas have grown, the terrorist threat 
has grown from out of that region. You know, I worked 
counterterrorism in the Justice Department. It is pretty clear 
this is where the 9/11 threat emanates from when you look at 
Ramzi Yousef, the World Trade Center, his uncle, Khalid Sheikh 
Mohammed, the London arrests.
    This is sort of the epicenter in my view if you will, and I 
am very pleased to hear the focus that is being given in this 
area. A couple of quick questions. One, the last time I was 
there I visited with then President Musharraf about education. 
The madrassahs, he had a policy to reform education and to 
reform the madrassahs. That didn't happen. Do you see any 
progress for that under the new administration and particularly 
for women to be educated?
    And then also, if I could just throw out another issue and 
let you answer both of these questions, the whole idea of 
conditioning foreign aid as we are looking at providing about 
$6.7 billion in military aid to Pakistan, it seems to me that 
we ought to be looking at ways and working with the 
administration to condition that upon certain security 
agreements, and also access to A.Q. Khan, the master 
proliferator who we know proliferated to Iran, Syria, North 
Korea, and yet we have never had the opportunity to sit down 
with him and get information from him.
    Ambassador Holbrooke. You know, on January 12, 2002, if my 
memory is correct, President Musharraf gave a widely hailed 
speech in which he aligned himself with the United States in 
the War on Terror and said he would restore democracy and he 
would close down the madrassahs preaching violence. He did none 
of the above. And the United States did almost nothing to 
insist on it. And so we fast-forward to 2009, and we go back to 
the Congresswoman's point about smart power, and I urge you to 
read the article in yesterday's New York Times front page 
because it will astonish you that so little was done. But here 
we are, we have to start again.
    On the issue of women, I think everyone in this room knows 
that for Secretary of State Hillary Clinton and for President 
Obama this is a huge issue, and we will do everything we can to 
promote it in both Afghanistan and Pakistan. It is very 
important. At the same time, I need to be very clear, going 
back to earlier comments, while women's rights are very 
important, we should not be in a position of asking young 
American men and women to risk their lives on behalf of issues 
that are not directly related to our national security. Those 
of us who have served in Indochina and elsewhere, those of us 
who have seen combat understand how that decision should be 
reserved.
    And I cannot tell you how important the women's issue is, 
but I have been out there. I have talked to the troops in the 
western deserts west of Kandahar. I have seen them, the unit I 
spent time with had taken three casualties and never seen the 
enemy. And if they say, why are they fighting, you can't say 
you are fighting so that women have equal rights. If we do 
that, we are going to fight in a lot of other countries.
    Mr. McCaul. And I certainly agree.
    Ambassador Holbrooke. This is a very nuanced issue. I don't 
want anyone to think we are diminishing the importance of it or 
reduce its importance in your legislation, but I don't want 
people to think as they did a few years ago that that is why we 
are putting troops at risk in Afghanistan. We are there because 
the people in the western part of the country, some people 
there are saying publicly that they intend to attack the U.S. 
again, and we cannot leave them untouched and unchallenged.
    Mr. McCaul. And I agree with that assessment. The issue on 
conditioning the foreign aid, tying it to security?
    Ambassador Holbrooke. Say again, sir?
    Mr. McCaul. We have $6.7 billion in military aid, and it 
seems to me we ought to condition that aid upon certain 
security arrangements and agreements and then A.Q. Khan.
    Ambassador Holbrooke. Well, both those issues we addressed 
at length earlier, but let me just say that it is 
understandable you want some degree of conditionality or as the 
chairman said accountability. Some of the things in your 
legislation I hope would be adjusted. The meeting that the 
chairman is going to have with President Zardari later today is 
very important in that regard. Our meetings don't begin until 
tomorrow morning. Secretary Clinton talked about finding the 
sweet spot between your legitimate and understandable desire 
and the need to help them quickly.
    But I do want to underscore that however the final 
legislation turns out, the goals and motives of, I prefer the 
chairman's phrase, accountability, Section 206 of the 
legislation, the goals themselves are very similar to our own 
goals. But the methodology is something I would hope we would 
have a chance to discuss further as you move forward, and this 
afternoon's meeting will help us do that.
    Mr. McCaul. Thank you.
    Chairman Berman. The time of the gentleman is expired.
    The gentlelady from Texas, Ms. Jackson Lee, recognized for 
5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    And let me add my appreciation, I was going to begin, 
Ambassador Holbrooke, by saying I didn't know where to start, 
but I can start with saluting you as a great public servant and 
one who has consistently accepted challenges without regard to 
your personal security, and frankly I believe we owe you a debt 
of gratitude and applause. You are now tied inextricably to 
President Obama and Secretary of State Clinton, and I think 
that is a very dynamic and a very productive team, no nonsense 
but balanced. And I believe that is extremely important.
    Let me just quote the former Prime Minister Benazir Bhutto, 
who I had a chance to speak to before her death; but comments 
that she made:

        ``The next few months are critical to Pakistan's future 
        direction as a democratic state committed to promoting 
        peace, fighting terrorism and working for social 
        justice. Democracy is to peace and to undermining the 
        forces of terrorism.''

She made it clear almost without the ability to see that 
challenge through. She almost was prophetic because obviously 
she lost her life, and in the months afterward we are facing 
these challenges.
    But I want to try to get to a core set of issues in 
wondering how we can move forward. For example, you will 
continuously hear my colleague mention A.Q. Khan, and I respect 
that, but I do think as part of our negotiations we have to 
probe Pakistan even though it is not connected, and I believe 
it should not as we move forward in your position as an envoy, 
to convince us that Dr. Khan is contained. Those of us who have 
traveled to Pakistan have heard that stated repeatedly, and as 
I joined my chairman for a very, very instructive CODEL, I 
believe it is also key that we emphasize a unifying of the 
government.
    We had a chance to meet opposition leaders as well as 
government leaders, and I think it is crucial that we focus on 
the unity of the Pakistan Government. It speaks to Benazir 
Bhutto's comment of moving forward and promoting peace, we 
cannot do it in a separated government. And I appreciate you 
commenting on that, but let me ask my further question here.
    I am told and I am reading an article that should come out 
on May 18 in Newsweek that in fact the military has made some 
accomplishments through Operation Shirdil. And I am wondering 
whether you are aware of that and whether or not those 
accomplishments can be commented on. They have utilized 
friendly Taliban, they are working with tribesmen, they are the 
ones doing their work similar to the Sons of Iraq that we did 
in Iraq and the United States military did with them.
    Lastly, I think we should read into the record what the New 
York Times said: ``Pakistan's poorest families have turned to 
madrassahs or Islamic schools that feed or house the 
children.''
    So, Mr. Ambassador, if you would comment on, can we not 
bring some good news out of Pakistan so that Americans know 
that the people of Pakistan want peace, want security, that 
these terrorist acts have gone against Pakistan institutions, 
such as the Marriott was owned by a Pakistani, and that we have 
got to push the government even as the monies are coming to put 
in place alternative schools, not even to wait until our money 
flows, because obviously they have some good dollars from the 
donor conference that you were so keen in supporting. And I 
yield to you and thank you for your service.
    Ambassador Holbrooke. Let me start by thanking you for co-
chairing the Pakistan caucus and saying that Secretary Clinton 
is very grateful that you are going to assist us in helping 
mobilize more of the resources of the Pakistani-American 
community. Your colleague, Dan Burton, is also participating. 
And this is of great personal interest to the Secretary of 
State and the President.
    Ms. Jackson Lee. And it is a great opportunity. The people 
of America who are Pakistani are very interested in being part 
of this.
    Ambassador Holbrooke. You will recall, Mr. Chairman, that 
when Secretary Clinton testified she referred frequently to the 
Pakistani diaspora, and that has not been done by previous 
Secretaries of State, and she is very serious about it, and 
Congresswoman Sheila Jackson Lee has been very, very supportive 
of this effort, and I would like to just record that.
    Now, in regard to the madrassahs, you are quoting the 
article I have already referred to twice, and I do commend it. 
In regard to the operation you mentioned, I must confess that 
either I didn't hear its name or I am not aware of what we are 
referring to, so I apologize.
    Ms. Jackson Lee. It is Operation Shirdil, S-H-I-R-D-I-L, 
and it is in the Bajur area, and allegedly there have been some 
activities by the Pakistani military where they have embraced 
the tribesmen who are working to fight against al-Qaeda and the 
Taliban.
    Ambassador Holbrooke. Bajur is where that is going on, and 
we don't have enough reports to know how well it is doing.
    Chairman Berman. The time of the gentlelady has expired. 
Ambassador, perhaps through writing there is a way to follow up 
on a couple of the questions that were not responded to.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman Berman. I am told Ambassador Holbrooke, and I 
wasn't aware of this, he has to leave at 2 o'clock. Maybe we 
can squeeze in three more people.
    Ambassador Holbrooke. Mr. Chairman, this came up while we 
were here. The White House asked if I could get right down. I 
apologize.
    Chairman Berman. Okay, so we will have time for no more 
than three, at the most, questioners.
    Mr. Burton is recognized for 5 minutes.
    Mr. Burton. Well, Mr. Chairman, what I will do is just try 
to put all my questions together so that we can save some time.
    There is a great deal of concern, and I don't want to be 
redundant, but Mr. Ackerman raised the issue about the 
intelligence operation in Pakistan and how there may be some 
agents that aren't quite on our side and may be working with 
the Taliban and may be double agents. I presume our 
intelligence agency, the CIA, is working with them to some 
degree, and I would like to know what is your assessment of the 
situation as far as whether or not we have got some potential 
enemies in their intelligence operation.
    Ambassador Holbrooke. With great respect, Mr. Congressman, 
I don't think it would serve the national interest to pursue 
this line in an open session.
    Mr. Burton. Well, then I would like to attend a closed 
session where we can get this information. The other thing I 
would like to ask is we have skirted around what we would do in 
the event that the Taliban did take over and move close to 
these nuclear sites in Pakistan, and I know you have to do this 
in a closed session, but I would like to have you explain to 
the Members of the Congress how we are going to protect those 
and what cooperation you can expect from the military in 
Pakistan even if the Taliban were to take over the civil 
government.
    Ambassador Holbrooke. You have a great talent, Congressman, 
for asking questions that are very sensitive, very tough, and 
probably ought to be reserved. We already discussed this issue. 
I think it might be worth a private session if he agrees with 
it.
    Mr. Burton. Yes, and I have one more question so I won't 
gobble up any more time. We talked about these madrassahs, and 
the Saudis and the Gulf States have been not only helping build 
madrassahs and create them in Pakistan, but they have done it 
in other parts of the world, in Canada, I believe some I have 
seen even down here in the United States. They have a vested 
interest in making sure that Iran does not get nuclear weapons, 
and yet when you start funding operations where terrorists can 
evolve out of them, you end up maybe getting bitten on the hand 
yourself. And I don't know if the Saudis have been made aware 
of that or not, but can you explain real quickly how you are 
going to stop the money getting into Pakistan and elsewhere so 
that these madrassahs are shut down or slowed down?
    Ambassador Holbrooke. Congressman Burton, you are three for 
three on questions I think we ought to discuss in private. This 
is a compliment. These are tough ones, and these are the front 
edge of what we are working on. I already addressed that 
earlier. And I do want to also thank you as I did Sheila 
Jackson Lee for your leadership with the Pakistani-American 
community and for your readiness to participate in the 
important meeting coming up this weekend.
    Mr. Burton. Thank you, Mr. Chairman. And I hope we will 
have a classified meeting if it is possible.
    Ms. Jackson Lee. Will you yield, Mr. Burton?
    Chairman Berman. We are very limited on time.
    Ms. Jackson Lee. I am only asking the question, I just want 
to make sure that we all can join in that classified briefing, 
thank you.
    Chairman Berman. Oh, yes, I would not convene a classified 
briefing just for Mr. Burton. But I would give him the first 
three questions. Absolutely, we will follow that up.
    And now the gentleman from Georgia, Mr. Scott, recognized 
for 5 minutes.
    Mr. Scott. Thank you very much.
    Ambassador Holbrooke, welcome. I want to just make a point 
because I think you did refer to the fact of the nuclear issue 
that we would discuss some of that in private session. But I 
want to make this statement in public in reference to that, 
because regardless of all the other issues that come up, 
paramount on the minds and the hearts of not just the American 
people but the people across the world is that this situation 
in Pakistan is unique because Pakistan has these nuclear 
weapons.
    Ambassador Holbrooke. Nuclear weapons in the center and al-
Qaeda in the west.
    Mr. Scott. Absolutely, and I want to get to both of those. 
But I do want to say we are giving them or are approaching to 
give them close to $9 billion. Our aid is coming, it is very 
important, it is somewhat of a fragile situation, we have got 
this nuclear issue. It might not be improper to have some 
consideration of requirements on this aid tied to and a 
capacity for the United States to have some joint cooperation 
with making sure that these nuclear weapons are secured.
    And I don't want you to have to respond to that. I just 
want you to know that there are some very strong feelings that 
we make sure, and I think that the world population is looking 
not for Pakistan to answer that question if their nuclear 
weapons are secure from that, but there must be a much more 
reliable source, and none more reliable than that the United 
States itself to say, yes, world, we have these in control, the 
nuclear capacity of Pakistan is under control. That will give 
the world a great sigh of relief, and I believe judging from 
the information we have that we are not there yet, and maybe we 
can make that a condition of our efforts.
    Going back to al-Qaeda, what is the end game now? We are 
very fearful that we could be in for a long slog here, very 
reminiscent of Vietnam. One of the mistakes we have is that we 
don't have an exit strategy, we don't have an end strategy. 
There is a cluster, there is a disagreement on what that 
mission is. Could you very quickly state to us in your succinct 
words, the reason I say that is because there is considerable 
thought within the Congress that we have just a year here, we 
have a year here to see what it is we can do over there and 
this administration. So I guess what I am looking at is, within 
that year, can we clearly define a mission now? Is that simply 
al-Qaeda? Is it getting Pakistan stable in the region? And what 
is our end game and our exit strategy?
    Ambassador Holbrooke. Mr. Scott, we can define the 
objective very clearly, and President Obama did that very 
clearly in his major speech and many other times. It is to 
destroy, disrupt and dismantle al-Qaeda, which pose a threat to 
us. But to give a precise timetable is to put in motion the 
seeds of your own failure. You say 1 year, and they will say, 
great, we will wait you out. This is a difficult struggle, it 
will take an unspecifiable amount of time.
    I fully understand the desire of the American people and 
the Congress for a time limit and an exit strategy, but there 
is a difference between an exit strategy and an exit timetable. 
And we have defined our strategy, but we certainly can't put a 
time on it.
    Mr. Scott. And in terms of al-Qaeda, and in terms of the 
Taliban, in terms of the fact that, is it an accurate statement 
from the reports that they are within 60 miles of the capital 
city?
    Ambassador Holbrooke. Not quite 60, but very close when 
they took Buner, but they have been driven out of Buner, and 
the Pakistani army is now trying to push them back in Swat. So 
it is more like 100, but the difference between 60 and 100 
isn't that significant. The importance is who has the momentum. 
Until yesterday the momentum did not appear to be in the right 
hands. The army has now begun a major offensive which 
Congresswoman Sheila Jackson Lee alluded to, and we will have 
to wait and see how it goes. I hope you will address these 
questions to President Zardari.
    Mr. Scott. We certainly will. Well, I have no seconds. 
Thank you very much, Mr. Chairman.
    Chairman Berman. Could we have one more?
    Ambassador Holbrooke. Of course.
    Chairman Berman. Mr. Costa from California, 5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman.
    And thank you, Ambassador. I appreciate your good work. You 
have drawn a very difficult assignment in your portfolio. I am 
a very pragmatic realist as I suspect you are, and you deal 
with the cards you are dealt and I know that is what you are 
dealing with both in Afghanistan and Pakistan. I was with the 
chairman in his last visit to Pakistan as well as India, and I 
have been to Afghanistan and Pakistan twice in the last 2 
years. Afghanistan first, how do we succeed there in which 
corruption seems to be, if not endemic, a way of life, and we 
have got the problems with the opium trade, and nothing we have 
done so far seemingly has been able to penetrate at the local 
level, although I know there has been a reset in our policy 
there.
    Ambassador Holbrooke. How do we succeed? Well, we are 
putting into place a huge array of different plans. This bill 
is one of them because this bill significantly restructures the 
priorities, and I think it is very clear that we are trying to 
change our strategy.
    Mr. Costa. To be certain that the money that we provide 
actually gets to the local levels?
    Ambassador Holbrooke. Am I certain? I am pretty certain 
that the money in the past, that not very much of it got down 
there. We want to change that.
    One point, Mr. Chairman, I didn't make earlier is that I am 
now personally reviewing all aid projects for both countries, 
and I have been rejecting a lot of them precisely on the 
grounds of Mr. Costa's question, because I didn't see that it 
was getting out there. Some of the money was driveled away to 
contractors in the Washington area or elsewhere, then it was 
subcontracted in the field, there weren't sufficient end use 
checks.
    We are restructuring everything. The other day we rejected 
a project for support of women's NGOs in Afghanistan because it 
was going through contractors, and we said let us put this 
money directly in the hands of the Ambassador for the same 
purpose, $30 million. We want to time that up, we want to come 
back to you in a year and say that accountability in our 
Government has gotten better, not just the accountability you 
are interested in with the Pakistanis.
    Mr. Costa. I appreciate that, Mr. Ambassador, and there is 
some local investments from California that have provided 
monies for construction of hospitals and schools, and I would 
like to pursue that on a separate line of questions.
    Ambassador Holbrooke. Delighted.
    Mr. Costa. Pakistan, same theme, I read the article that 
you referenced twice now. Two different Pakistans as the 
article pointed out, a third or 40 percent urban, secular, 
educated, the other 60 percent plus rural, poor and not much 
education. And yet the 60 years that we know of the history of 
Pakistan as a government has been primarily run by the military 
with intervals of democracy. Through all that time corruption 
has run fairly consistent. What are your milestones in these 
negotiations with our Pakistani allies? I agree with you, 
timelines don't make sense, but it seems to me there has to be 
milestones that they need to reach.
    Ambassador Holbrooke. Well, we are working with your 
committee on these what you call milestones. I think my 
colleagues in the administration like the word metrics, but we 
all know what we mean. I have always had a feeling that if we 
are succeeding we are going to know it.
    Mr. Costa. And the question hasn't been asked, but it has 
been inferred to, we hope the current government well and that 
they are successful, what is our backup plan if by the end of 
this year we are dealing with another government in Pakistan?
    Ambassador Holbrooke. If we have a backup plan of the sort 
you mean, we are just going to publicly undermine the 
government. Asif Ali Zardari is the democratically elected 
President of the second largest Muslim country in the world, 
the fifth largest country in the world, he is coming to meet 
you all this afternoon, and he should be treated as the leader 
of a country who vitally needs our support and whose success is 
directly related to our most vital national interests. And to 
address your question as an American official would be only to 
undermine that goal.
    Mr. Costa. I appreciate that, I understand that.
    Ambassador Holbrooke. But I do want to underscore again 
this is a country that has had over half its history in 
military rule, and we don't want that.
    Chairman Berman. The time of the gentleman is expired. We 
have one last person here. Do you think as you are bundling up 
to leave, Mr. Ellison could throw out a question or two to you?
    Mr. Ellison. Yes, I just have one question, Mr. Ambassador, 
and like everybody has lauded you, I want to join in that, but 
I won't waste time doing it because I know you feel good about 
the work you have done. I would like to see us connect aid to 
access to nuclear scientists to redeploying away from India to 
more in the more vital areas and a long list of other things we 
could connect aid to, but how does that make President Zardari 
look in the eyes of the people who want to defeat him? Do they 
use it to say, see, you are just a toy of the West, and then 
use that to sort of undermine what motion he could make?
    Ambassador Holbrooke. Great question. President Zardari has 
often been accused of being too pro-American. And please bear 
that in mind. He has paid a price for being pro-American while 
some Americans don't appreciate how much he is trying to do the 
right thing for his country. And I am glad you asked that 
question as a scene-setter for your own meetings with him 
today.
    Chairman Berman. And the only thing I would say, because I 
do think that is a very important question, but we just have 
spent 9 years not conditioning, not holding accountable, and 
what have we gotten for that? And one thing, Musharraf wasn't 
was a toy of the Americans. But in and of itself, that didn't 
solve the fundamental question.
    Mr. Ellison. Ambassador Holbrooke, I very much appreciate 
your being here. I know this is an incredibly busy week and an 
incredibly busy month and an incredibly busy life, and you have 
a huge job ahead of you. No one is better able to do it than 
you, and we thank you for being here.
    Chairman Berman. We are going to have a second panel now 
even if it is just for me. But the second panel I am going to 
introduce as they come forward.
    For our second panel today, we have several noted experts 
on Pakistan. Lisa Curtis is a senior research fellow at the 
Heritage Foundation, where she focuses on America's economic 
security and political relationships with South Asia. Before 
joining Heritage in August 2006, she worked on the Senate 
Foreign Relations Committee as a professional staff member for 
3 years for then Chairman Senator Lugar. From 2001 to 2003, she 
served as a senior advisor in the State Department's South Asia 
Bureau. She has also worked as an analyst for the Central 
Intelligence Agency in the late 1990s.
    Christine Fair is a senior political scientist with the 
RAND Corporation. Prior to rejoining RAND, she served as a 
political officer to the U.N. Assistance Mission in Afghanistan 
and as a senior research associate in the United States 
Institute of Peace. Her research focuses on security 
competition between India and Pakistan, Pakistan's internal 
security, the causes of terrorism in South Asia, and United 
States strategic relations with India and Pakistan. She is a 
member of the International Institute for Strategic Studies, 
the Council on Foreign Relations, and is the managing editor of 
India Review.
    Daniel Markey is a senior fellow for India, Pakistan, and 
South Asia at the Council on Foreign Relations. His areas of 
specialization include security and governance in South Asia, 
international conflict, theories of international relations, 
and United States foreign policy. From 2003 to 2007, he held 
the South Asia portfolio on the Policy Planning Staff of the 
Department of State. Prior to government service, Dr. Markey 
taught courses in the Politics Department at Princeton 
University and served as the executive director of Princeton's 
Research Program in International Security.
    And while our audience is small, it is very interested. So, 
you know, you could talk to a lot of people who wouldn't care. 
You have got a few people who really do. So, Ms. Curtis, why 
don't you start. And try and summarize your opening statement 
in about 5 minutes.

  STATEMENT OF MS. LISA CURTIS, SENIOR RESEARCH FELLOW, ASIAN 
            STUDIES CENTER, THE HERITAGE FOUNDATION

    Ms. Curtis. Okay. Chairman Berman, Congressman Burton, 
thank you very much for inviting me here today to testify on 
this very important topic. Pakistan is being roiled by a well-
armed and well-organized insurgency pushing for the 
establishment of strict Islamic law, beginning in the country's 
northwest frontier province, but with the long-term goal of 
provoking a nationwide Islamic revolution. Although the 
collapse of the Pakistani state may not be imminent, as some 
have recently suggested, the government's surrender of the Swat 
Valley to pro-Taliban militants was a major victory for the 
extremists seeking to carve out pockets of influence throughout 
the country.
    Islamabad's decision to allow the implementation of a 
parallel Islamic Court system in Malakand division of the NWFP, 
which includes Swat Valley, demonstrates the weakness of the 
Pakistan Government and military in the face of the militant 
onslaught. The Pakistan military had deployed some 12,000 
troops to Swat Valley for 18 months in 2007 and 2008 before 
surrendering to the militants. The surrender occurred despite 
the overwhelming vote in favor of the secular political party, 
Awami National Party in the February 2008 elections, 
demonstrating that the people of the region do not support the 
extremist agenda but are merely acquiescing in the absence of 
support from the government to counter the militants.
    Washington has repeatedly warned Pakistani officials about 
the danger of appeasing the militants through peace deals that 
confer legitimacy on them and help them consolidate control 
over ever increasing parts of the province. Pakistani officials 
have rejected Washington's concerns, accusing United States 
officials of hyping the threat and/or misreading the local 
ground situation. Pakistani officials have also glossed over 
the fact that the establishment of a parallel Islamic court 
system will have dire human rights consequences for average 
Pakistanis, mainly women and girls.
    Events over the last 2 weeks, however, may have finally 
awakened some Pakistani officials to the downsides of the Swat 
peace deal. The leader of the pro-Taliban militants, Sufi 
Mohammed, declared in a recent interview that democracy is not 
permissible under Sharia law, revealing the militants' ultimate 
objective of undermining Pakistan's democratic institutions 
nationwide. And just 1 week after Pakistani President Asif Ali 
Zardari approved the Swat Valley peace agreement following 
passage of a parliamentary resolution urging him to do so, the 
Taliban took over the neighboring district of Buner.
    The Taliban subsequently agreed to pull out of Buner on 
April 24 after Pakistan deployed paramilitary troops to the 
region. That same day, Chief of Army Staff General Kiyani sent 
a warning to the militants that the Army would not allow them 
to impose their way of life on the civil society of Pakistan. 
The statement was a positive first step in clarifying Pakistani 
policy toward the militants, but it must now be followed by 
sustained and consistent action based on a comprehensive civil-
military plan to counter the militants' objectives.
    Pakistani civilian leaders have been too slow to awaken to 
the threat before them and too willing to sacrifice their 
constituents to the brutal policies of the Taliban. For 
Pakistan to fend off the growing extremist influence in the 
country, civilian leaders need to highlight the brutality of 
the pro-Taliban militants, demonstrating they are forcing a way 
of life on Pakistani citizens that is alien to their own 
historical traditions of Islam and aspirations for 
constitutional democracy.
    The struggle is certainly Pakistan's to fight, but the 
United States can support those Pakistanis standing up for the 
preservation of democratic institutions and promotion of 
tolerance, pluralism, rule of law, and the development of civil 
society. Both the Pakistan Enduring Assistance and Cooperation 
Enhancement Act of 2009, the PEACE Act recently introduced in 
this Chamber, and the Enhanced Partnership with Pakistan Act of 
2009 introduced yesterday in the Senate, demonstrate the United 
States interest in developing a broad-based, long-term 
partnership with Pakistan.
    The PEACE Act provides comprehensive details on the shape 
of future economic aid to Pakistan, focusing on a range of 
areas, including strengthening the Parliament, the judicial 
system and law enforcement sectors. The PEACE Act also 
addresses the need for strong oversight and accountability in 
the provision and distribution of this aid and to ensure that 
it is not wasted or abused. Both bills also contain language 
calling for greater accountability with regard to future 
military assistance to Pakistan.
    These measures would require Islamabad to permanently break 
the links between its security services and the Afghan Taliban 
and other extremist groups. While some have raised concerns 
that such conditions will discourage rather than encourage 
Pakistani cooperation against terrorists, others note that we 
must begin to develop leverage with our large-scale aid 
programs and ensure that U.S. taxpayer money does not 
perversely contribute to undermining United States objectives 
in Afghanistan.
    Ambassador Holbrooke talked about reaching that sweet spot, 
and I would just point out that that sweet spot would recognize 
Pakistan's genuine security concerns but also make clear that 
the United States will not tolerate dual policies toward 
terrorists. While seeking to stiffen Pakistani resolve against 
the Taliban, the United States must at the same time shore up 
Pakistani capabilities.
    To this end, it is appropriate that Central Commander 
General Petraeus be given the latitude and flexibility he needs 
immediately to strengthen Pakistani capabilities to fight 
insurgents through the proposed Pakistan Counterinsurgency 
Capability Fund that would allocate $400 million in this fiscal 
year to build the capacity of Pakistan's security forces and 
assist with humanitarian relief efforts in post combat zones. 
While the PCCF for this year has no specific conditions 
attached to it, the U.S. Congress should find some mechanism to 
ensure that the PCCF funding for future years will be 
contingent on whether the 2009 tranche has contributed to 
strengthening both Pakistan's capability and will to fight 
terrorism.
    Chairman Berman. I think, Ms. Curtis, could you just sort 
of wind up?
    Ms. Curtis. Yes. And lastly, the United States should 
dedicate diplomatic resources to helping the leaders in 
Afghanistan, Pakistan and India develop a different security 
paradigm for the region that allows them to focus on containing 
dangerous nonstate actors, enhancing cooperation and regional 
integration. And lastly, while the United States should do 
everything possible to stabilize Pakistan, Washington's best 
efforts alone will not be sufficient for the task. We need 
Pakistan's leaders to also demonstrate they are willing to 
stand up against Taliban advances in their own country. Thank 
you.
    [The prepared statement of Ms. Curtis 
follows:]<greek-l>Curtis deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you.
    Ms. Fair.

STATEMENT OF MS. C. CHRISTINE FAIR, SENIOR POLITICAL SCIENTIST, 
                        RAND CORPORATION

    Ms. Fair. Thank you, Chairman Berman, Congressman Burton 
and esteemed colleagues, for the opportunity to participate in 
today's hearing on the future of United States-Pakistan 
relations.
    The finding that the U.S. requires a ``balanced, 
integrated, countrywide strategy that targets assistance 
throughout Pakistan and does not disproportionately focus on 
the military or a specific area or province'' is a very welcome 
departure from past policies. Indeed, there is wide concurrence 
that perhaps the only path to a stable Pakistan at peace with 
itself and with its neighbors is one that is firmly controlled 
by capable civilians rather than one that is dominated by the 
military directly or indirectly.
    I am similarly heartened by the explicit interest in 
ensuring transparency and effective accountability of all U.S. 
assistance and reimbursement to the country. While many of the 
provisions to strengthen the national Parliament, the political 
parties, and other civilian institutions as well as civil 
society seem appropriately configured and indeed vital to 
rehabilitating a civilian-controlled Pakistan, I will focus the 
balance of my remarks upon the areas that concern me most.
    First, all of the efforts in this legislation presuppose 
effective partnering with Pakistanis truly vested in change. 
Without such collaborators for change, it is doubtful that 
these proposed efforts will fructify. Yet in all honesty, 
actual reformers in my view seem few and far between. Some of 
the proposed areas of activity, such as educational curricula 
reform, will likely be staunchly resisted on nationalist 
grounds even if they say yes in the presence of U.S. 
interlocutors.
    Pakistanis have consistently expressed considerable concern 
about United States efforts to ``de-Islamize'' Pakistan's 
schools. So rather than dictating programmatic areas of reform, 
a better approach might be a required consultative approach 
with Pakistani counterparts to identify areas of reform and a 
joint plan of mutual resourcing and commitment. Without up 
front Pakistani commitment and buy-in, I am simply unconvinced 
that these programs as described will actually have effect.
    And I would like to say as an aside the U.S. does some 
things very well: Encouraging competition. The World Bank has 
had very interesting results in the efficacy of private 
schooling, and maybe we could talk about this more in the 
question and answer period, there simply is no data that 
support a preponderance of students going into madrassahs or 
that madrassah students are more poor on the average than 
public school students. So there are a lot of data that simply 
doesn't support the most hair-raising of accounts that we hear 
in the media, and I am happy to talk about that, I have done a 
lot of work in that area.
    I am also concerned that the United States may not have the 
capacity to execute such a capacious program responsibly and 
with effective outcomes given the human capital challenges 
within the United States mission in Pakistan, the constricted 
security environment that constrains them, the very real danger 
to United States personnel in Pakistan, and a potential paucity 
of credible Pakistani reformers dedicated to the kinds of 
capacity-building you have envisioned in this legislation.
    In addition, the U.S. aid business model of relying upon 
layers of contractors to deliver services may result in much of 
the funding returning to the United States, suboptimal outcomes 
and greater disappointment in the failure to deliver services 
to the Pakistani polity. What I do not see in this legislation 
is any provision to enable Pakistan to increase its own ability 
to raise domestic revenue.
    Long-term aid aimed to help the Pakistani Government 
deliver services undermines the social contract between the 
government and the governed because the government has few 
incentives to raise revenue and redistribute these funds as 
services or even to make hard choices about budgetary 
commitments, and I am talking specifically about the tradeoff 
between human capital development and military expenditures. 
There are simply few reasons why Pakistan cannot in the near 
term learn to pay for itself, and it should be encouraged to do 
so.
    The bill also pays scant regard to Pakistan's police. 
Despite the robust counterinsurgency literature that 
consistently finds that police win insurgencies, not armies, 
and we are learning this also in Afghanistan, this legislation 
simply doesn't pay adequate attention to the Pakistan police. 
Yet unlike the army, which has shown considerable resistance to 
change its doctrine toward one that is more coin-inclined and 
less inclined to be ready to fight India, Pakistan's police 
have actually tried to reform themselves. Yet they are 
obstructed by Pakistan's bureaucrats and political leadership. 
Yet the police are poorly trained, poorly equipped, undermanned 
and under fire from the insurgents. Quite frankly, they are 
sitting ducks.
    My most significant concerns stem from the provisions in 
Section 206. The majority of the proposed security assistance 
is aimed at buttressing Pakistan's ability to effectively 
eliminate insurgent and terrorist threats. While I support the 
sense of the House that Pakistan must be held to account on 
nuclear proliferation and supporting militant groups 
terrorizing the region, there is little likelihood that 
Pakistan will acquiesce to stated demands. And this puts the 
United States in a very awkward position of having to once 
again execute waiver authority to allow funding to continue.
    It continues a well worn cycle of the United States bending 
its commitment to accommodate the importance of dealing with 
Pakistan, and quite frankly it undermines Pakistan's 
interpretation of United States intentions of how serious these 
issues are. I prefer a benchmark or a metrics-based approach 
which actually tries to achieve the same goals that you have 
identified in this legislation but one which provides a 
mechanism for verification, data that will be used to prove 
compliance.
    And we can talk about it more, perhaps in the Q&A, but I 
think a data-driven, process-oriented, benchmark-focused 
process has greater transparency and will be more easy to 
communicate to the Pakistanis if after concerted collaborative 
effort Pakistan continues to fail to meet our expectations, and 
revision of security assistance is needed. Thank you very much.
    [The prepared statement of Ms. Fair 
follows:]<greek-l>Fair deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Mr. Markey.

   STATEMENT OF MR. DANIEL MARKEY, SENIOR FELLOW FOR INDIA, 
     PAKISTAN, AND SOUTH ASIA, COUNCIL ON FOREIGN RELATIONS

    Mr. Markey. Thank you, Mr. Chairman, Congressman Burton, 
and members of the committee, for this opportunity to discuss 
United States policy toward Pakistan.
    My remarks today are based on my written testimony, which 
is in the form of a report that was released by the Council on 
Foreign Relations about a week ago and has been submitted to 
the record. I think we are all familiar, and we have become 
more familiar over the course of the last discussion, with the 
numerous policy challenges that we face in Pakistan. We have 
got al-Qaeda, we have got Taliban, we have got India tensions, 
we have got nuclear problems, we have got a weak state, just to 
mention a few.
    But what worries me the most, and what I think doesn't get 
quite as much attention as it deserves, is the need to focus on 
what I would consider to be a next generation of challenges, 
the longer term threats that we face from Pakistan. And here I 
would identify for you, the fact of the matter is that the next 
generation of extremists and of globally interconnected 
terrorist groups are likely to come from Pakistan. Over half of 
Pakistan's population are teenagers. They suffer from poor 
education, from weak economic opportunities, and they are 
surrounded by this pervasive sense of anti-Americanism that is 
seeping into their lives and informing their actions.
    So all the threats that we currently perceive coming from 
Afghanistan are there in spades in Pakistan, and so the 
implication of this, and what I draw in my report, is that the 
United States should shift its strategic focus not just from 
Iraq to Afghanistan, not just to link Afghanistan and Pakistan, 
but to go one step further and place Pakistan at the center of 
our strategic concerns. And I think we need to recognize that 
in doing so we face an incredibly difficult, complicated and 
probably very costly challenge for the United States looking 
ahead.
    So, in order to do this, I tried to identify what I 
consider to be the best strategy moving ahead. And this is a 
long-term strategy, it is based on two central pillars. The 
first of these is what I would consider to be the inducement of 
allies and of partners within Pakistan's civilian political 
leadership, within its military, and within wider society. We 
should use our United States assistance to empower those 
elements within Pakistan that already see their interests in 
similar ways to the way that we do and to make them more 
effective at achieving those interests. That is pillar one.
    Pillar two is that we should be seeking to reshape the 
strategic environment of the region as understood by those 
actors within the region. We should use our assistance, our 
military operations and our diplomacy to create new incentives 
for those actors to convince Pakistan's political and military 
leadership of the benefits of working with us and <greek-l>the 
deg.of the costs inherent of opposing our efforts.
    Now, at best, these are going to be long-term goals. They 
are probably not going to make rapid progress even if we spend 
$1.5 billion a year, even if we place 60,000 or more United 
States and NATO forces into Afghanistan. They are going to 
require patience, and they are going to especially require 
patience within the next 3-5 years.
    But remember, the point that I made earlier, the thing that 
concerns me the most about Pakistan is not just the urgent 
threats that we are all very aware of, but it is this next 
generation of challenges that we are likely to see coming from 
Pakistan. Now, in the next 3-5 years, until Pakistan is capable 
I think of being a more effective partner to meet those urgent 
threats, we will continue to need to use the forceful United 
States military and intelligence operations in Afghanistan 
along the Pakistan border. I think we all know what we are 
talking about here.
    But in conducting those operations I would suggest that we 
need to do our best to do the least possible to jeopardize the 
prospects for a longer term partnership. So let me conclude by 
making a number of points about how this strategy that I have 
just laid out in very brief terms relates to pending 
legislation. First of all, I support this type of U.S. military 
and civilian programming of the sort that you have put forward 
in H.R. 1886.
    And I would recommend in addition to that that the 
committee encourage the administration to go one step further, 
to fund adequately the funding of United States civilian 
capacity to operate effectively throughout Pakistan. The 
concerns about security that currently dog United States 
operations in Pakistan are so debilitating that I think it will 
be almost impossible unless we ramp up our operations there to 
adequately formulate or implement the kinds of programming that 
we would like to see in the country.
    Secondly, I support military assistance and diplomatic 
commitment over the long haul to Afghanistan. And this relates 
to my desire to try and shape the strategic environment in the 
region. We have to convince the Pakistanis that we are 
committed to seeing the project in Afghanistan through to the 
end to make it clear that their strategy of hedging, which has 
led them to support various groups in the past, will not work.
    Now I know I am out of time, so let me just say what I 
oppose and then we can go on at length later. I oppose 
legislation that is based on conditions that would curtail 
assistance in the future. We do not want to repeat mistakes of 
the past where the implication of Pakistanis not doing what we 
ask them to do is cutting off our assistance and further 
damaging the relationship.
    I oppose United States diplomatic statements that undermine 
confidence among Pakistanis and make it more likely that 
Pakistanis who are in the elite, the intellectual class, are 
likely to believe that their country is really going down the 
tubes and make it more likely that they themselves will leave 
the country. And finally, I oppose the use, and this is 
something that seems to not have come up very regularly, I 
oppose the continued use of Coalition Support Funds as a 
particular mechanism for funding the Pakistani army.
    I believe that this has been a very frustrating mechanism 
for us, and it has been very frustrating for the Pakistanis. To 
the extent that we are looking for a way to improve our 
partnership, I find it baffling that we would continue with 
this particular kind of mechanism. We need to find a different 
way, and I am sort of surprised that this hasn't been a 
centerpiece of our revision of the kinds of assistance 
programming that we do with the Pakistanis.
    And I will leave it there. Thank you.
    [The prepared statement of Mr. Markey 
follows:]<greek-l>Markey deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. Well, thank you all very much. I am going 
to temporarily turn over the chair to Mr. Ellison, who will 
yield himself time to start the questioning. I will be back.
    Mr. Ellison [presiding]. Let me thank the panel, and I will 
yield myself 5 minutes. My first question is the question I 
left off with with Ambassador Holbrooke. What impact does 
linking aid have on the ability of Pakistani leadership to 
advance the issues that we care about here? How important is it 
to be concerned about how opponents of the government are going 
to paint the government if the government accepts a deal with 
the United States for aid that conditions things like 
redeploying away from India, improving relations with India, 
things like that?
    Ms. Fair, why don't you start?
    Ms. Fair. Well, as I said in my written statement, they 
simply won't do it. And then we are going to be put in the 
awkward position of using the waiver. And so I actually have a 
fairly strong opposition to putting conditionalities that we 
can say right off the bat they won't acquiesce to, forcing us 
to use this waiver. And if you look at the long expanse of 
United States history of engaging Pakistan, we have always done 
this. We have legislative commitments and we always override 
it.
    Mr. Ellison. So, Ms. Fair, are you saying we keep in the 
conditions but take out the waiver, or are you saying we don't 
put in a waiver or the conditions?
    Ms. Fair. Well, you know, this is a philosophical question 
in some measure, but I actually do believe that we cannot be 
paying the Pakistanis to participate in eliminating some 
terrorists while still continuing to foster and encourage other 
terrorist groups. So I actually do support the idea of 
conditionalities, but I really think it should be process-
based, it should be evidence-based. The conditionalities as 
stated can be finessed to the point of futility or simply 
refused, forcing us to use a waiver. I also think that it has 
to be done collaboratively with the Pakistanis.
    Mr. Ellison. Thank you. That is a good point you closed on.
    Mr. Markey, do you want to weigh in here?
    Mr. Markey. Yes, I would agree with the tenor of your 
question, which is essentially we are playing into a complex 
political debate within Pakistan. We need to recognize that our 
words and our legislation have implications for how Pakistanis 
and Pakistan's leaders interact with their own people, and we 
can do things that will undermine our very partners.
    And I think that that is unfortunately, even though I share 
all of the goals that are in this legislation, I think that is 
how it is playing out in Pakistan's very complicated political 
environment. We need to simply recognize this and deal with it. 
Now that doesn't meant that we don't require things, but we 
probably shouldn't require them in these forms, and at the very 
least we shouldn't implicate or imply that we will cut off 
assistance and repeat the mistakes of the past of severing the 
relationship if what we try first doesn't work.
    Mr. Ellison. Ms. Curtis?
    Ms. Curtis. I have a dissenting view, sir. I think the U.S. 
needs to find some leverage. We have tried inducements. Seven 
years later, $11 billion later, we still have General Petraeus 
telling us it is a very mixed picture from the Pakistan 
military. Yes, we are getting more cooperation along the 
border, yet we still see unhelpful links to the Taliban. So I 
would just repeat my view that I think the time has come to 
demonstrate that we won't tolerate these dual policies.
    Mr. Ellison. You know, Ms. Curtis, if I had more than 5 
minutes, I wouldn't mind letting you continue on. Let me move 
on. You know, in my own district in Minneapolis, when we 
discuss Pakistan, and we often do, one of the issues that comes 
up is the unmanned aerial vehicles. I wonder if each one of you 
would offer your assessment as to the net utility. I mean, I 
know they have a benefit, I know they have a detriment, but 
what is the net utility of the use of these unmanned vehicles, 
and how might we as Congress move forward to make them 
effective where there can be diminished civilian casualties 
which have been linked to them in a significant way?
    Why don't we start with Ms. Curtis since we left off with 
her last time.
    Ms. Curtis. Yes. Well, I think there has been success in 
our counterterrorism efforts from the drone strikes. We have 
heard that we have been able to make more of an impact in 
disrupting the al-Qaeda leadership in the last 9 months from 
our drone strikes than we have since 9/11. So I think we need 
to just take account of that. On the other hand, I think the 
drone strikes, while they can address short-term risks, they 
are not a long-term strategy and they can undermine our long-
term goals. So we need to assess whether in moving forward they 
will actually undermine our longer-term counterterrorism goals.
    Mr. Ellison. Ms. Fair?
    Ms. Fair. I have a very similar view. I will say that we 
actually are under this belief that Pakistanis uniformly reject 
drone strikes. I think it is an empirical question. There are 
actually surveys right now being done by IRI. I have a survey 
in the field that will come out in June that actually assesses 
this. The Ariana Institute released a poll of people in FATA, 
actually people in Fatah according to those data, welcome the 
drone strikes. So my experience in going to Pakistan over the 
last year is that the drone discourse has changed. People who 
believe that there are terrorists in Fatah do not seem to 
oppose them as much as we think they do. The problem is that 
many people don't believe that terrorists live in Fatah.
    Mr. Ellison. I am sorry, Ms. Fair.
    Mr. Markey?
    Mr. Markey. I agree with much of what has been said. I 
would only add one point. That is that as these strikes have 
been used with accelerating frequency, there is some evidence 
according to certain sources that some of the individuals who 
are most targeted by them have moved to other parts of 
Pakistan. This is discouraging and potentially quite 
destabilizing because the other parts of Pakistan are further 
into Pakistan, and if Pakistan's stability is a central concern 
of the United States, then the further use of this particular 
tactic may prove counterproductive over the longer term.
    Mr. Ellison. Okay, let us talk education for a moment. 
Personally, I will just express my own bias. I wish that we in 
the United States would separate this talk about Islam and 
Muslims and all this stuff from the other problems of 
terrorism. When you link them, you just make every Muslim a 
little nervous that you are coming after them. And so I think 
that they should be delinked. I think that you can carry on the 
conversation without implicating religion.
    But let me just say that the madrassahs, of course a lot of 
negative things have come from them, but not all of them, and 
it is important also to point out that they are the only option 
for much of the Pakistani poor. What can we do to not sort of 
put education versus Islam but sort of education and Islam? And 
let me just make this last final comment, and that is this is a 
Muslim country. You know, we have to respect the fact that this 
is not the United States, this is another country, and our goal 
should not be to make it a little United States in the East.
    And I also just want to say that, when you look at some of 
these pictures of some of these kids reciting Koran, they do 
not know what they are saying. They know the phonetics of the 
Arabic alphabet and can sort of say the sounds that are 
presented on the page, but they don't know what that passage 
means. So, if somebody who has a nasty political motive says 
kill the infidel, they are like, well, that must be what it 
says because this respected person said that is what it says 
and I can't read it.
    Would you all react to some of that? Ms. Fair?
    Ms. Fair. Thank you. You really hit the nail on the head. I 
do a lot of work on madrassahs. A couple of points. The data do 
not support that madrassahs are the vestige of the poor. In 
fact, if you look at data, madrassahs have more wealthy 
children in them than public schools do. So I always encourage 
people, look at what the data say. The World Bank as well as 
Pakistani researchers have done this.
    Second, I wish the U.S. would stop harping on the madrassah 
problem. Pakistan is a Muslim country, it needs ulema, and it 
undercuts the efforts of actual reformers within the system who 
want to produce ulema that are relevant to a modernizing 
country. Now the work of those reformers has been undermined 
because they look like U.S. puppets. Secondly, and related to 
that, the work of Quintan Wiktorowicz and others, including my 
own public survey work, finds that people who are actually more 
Islamic, i.e. educated in Islam, are prepared to resist the 
recruiters' methods.
    It is the people who, as you noted, are unable to engage 
the ill-advised militant recruiter to say actually this isn't 
Islam. It is actually the deracinated if I can use that word in 
this context and unknowledgeable people who are most 
vulnerable. So I actually think there are other strategies that 
we can discuss, and that is why in my written testimony we 
should get out of the racket of telling Pakistanis how to run 
their schools.
    If Canada were to tell us what we should be teaching, we 
would have a problem. We should do what we do best, and that is 
foster excellence through competition, and there are many 
people in Pakistan that are interested in educational options 
and we should really be engaging those people who want to 
partner with us rather than dictating an educational agenda 
that is born in Washington.
    Mr. Ellison. If either one of the other panelists want to 
respond, that will be my last question.
    Ms. Curtis?
    Ms. Curtis. I agree that the majority of madrassahs in 
Pakistan are not producing terrorists and there are legitimate 
madrassahs training clerical leaders. What we need to do is 
hone in on the real problem, which are those madrassahs that 
are supporting terrorism like the Haqqania madrassah in the 
tribal areas, a couple unhelpful ones in Karachi, the Lashkar-
e-Taiba complex in Muridke, Pakistan. I mean, we know where the 
unhelpful ones are and that is what we need to focus on.
    Mr. Ellison. And, Ms. Curtis, can you simply tell us for 
the record what the word madrassah translates to in English?
    Ms. Curtis. Islamic seminary, no?
    Mr. Ellison. Ms. Fair?
    Ms. Fair. It literally means school.
    Mr. Ellison. It literally means school. Thank you for 
saying that.
    And I just want to let Mr. Markey respond.
    Mr. Markey. Just very, very briefly. The focal points for 
the United States' strategy should be quality education, as 
Chris Fair said, and training camps. I think we can eliminate 
the madrassah point and simply say anywhere that there are 
training camps where extremists are preaching and training for 
violent acts should be targets for U.S. focus. It doesn't need 
to be linked.
    Mr. Ellison. And now we will recognize Congressman Dan 
Burton from Indiana.
    Thank you for your indulgence, sir.
    Mr. Burton. I have been in the Congress for a long time and 
on this committee for 26 years now, and the one thing I have 
learned is you can't make the rest of the world over in our 
image. And in many cases, you can't create a democracy which we 
would all like to see because of the result of that democracy. 
And right now in Pakistan it appears as though the Taliban, 
should they be successful, we would end up with a government 
that we don't want because we tried to create a government the 
way we want it to be.
    So my questions are first of all, it is obvious that the 
young people in that country are a majority, and they are in 
large part being trained by I guess the Taliban and other 
radical elements. And the money is not there for these schools 
to be built or created that would teach them things other than 
what is being taught in radical mosques. So what is the answer? 
They don't have the money over there as I understand it to go 
out in the countryside and make sure that the people who live 
out there can get a good education if they don't go to those 
schools in most cases. So how do we get that money out there 
for the educational purposes from your point of view? Go ahead.
    Mr. Markey. I would say there is a resource issue, and this 
has been persistent for some time, but when I talk to United 
States aid officials on the education issue in particular, they 
will say a large part of this is an organizational problem, and 
it is a problem of politics in Pakistan. Even when resources 
have been available they have been siphoned off to purposes 
other than the public education system. So the problem is not 
simply dollars and cents, it is the adequate implementation of 
programming either by the United States, by NGOs or by 
Pakistani Government itself.
    And so my recommendation is that if we want to have a 
better window into what is actually happening on the ground and 
encourage quality education, then we need to have U.S. and 
U.S.-linked officials based in Pakistan who can get out there 
and see for themselves what is actually happening. And right 
now we lack that. We lack that both because we don't have 
enough people there and because they are not safe to get 
around. And that is a critical gap in our capacity in Pakistan.
    Mr. Burton. You indicate that money that goes over there 
for educational purposes is not reaching its target. Is that 
because of corruption in the government?
    Mr. Markey. That has often been the case, yes.
    Mr. Burton. So how do we get that educational money to that 
proper use? Go ahead.
    Ms. Fair. I have a dissenting view. I really want to go 
back to the data. The World Bank has looked at this repeatedly. 
Families who have no other opportunities but madrassahs are 
more likely to opt out of the public school system. We have to 
get rid of this myth that they are the school of last resort. 
Families actually choose in many cases to send their child to a 
madrassah because it confers religious benefits even while they 
send other children to public or private schools. So the first 
thing we have to do about education is really get rid of the 
myths and look at the data.
    Second, as Dan Markey noted, it is not necessarily a 
resource constraint issue. It is a corruption issue, you have 
many ghost schools, and let me go back to the point that I made 
about private schools. The World Bank has consistently found 
that private schools can deliver a better education at lower 
cost, and the reason is you don't have ghost schools, you don't 
have as much teacher absenteeism. So we need to really rethink 
this educational issue.
    Mr. Burton. That really doesn't answer the question about 
how we get the money to its intended purpose so we can stop 
these young people being indoctrinated in many cases with a 
radical approach to Islam.
    Ms. Fair. Sir, let me tell you, Lashkar-e-Taiba does not 
recruit its terrorists from madrassahs. This is a fiction. Your 
average Lashkar-e-Taiba terrorist has a 10-year attainment. 
That is approximately 5 years more than the average Pakistani. 
So this idea that terrorists are all poor and indoctrinated 
from madrassahs is an empirical falsity. We have to help 
Pakistan develop better education and employment opportunities 
across the board. We know the bad madrassahs, and let me tell 
you they are really training camps. I have been to numerous 
madrassahs all over Pakistan. We need training camp-focused 
policy, not madrassah-focused policy.
    Mr. Burton. Well, and that is my point.
    Did you have a comment?
    Ms. Curtis. Just I agree that we need to focus on the 
public education system, but we also need to get the Pakistan 
Government to increase its share of GDP that it spends on 
education. I have heard from numerous United States aid 
officials we have put a lot of money into the education system 
in Pakistan, but unless we are matched with the Pakistan 
Government we are not going to be able to make the whole scale 
changes we need.
    Mr. Burton. Well, since there is corruption in 
administration after administration and the money is siphoned 
off for other purposes, what do we have to do, go through NGOs? 
Work out a deal with the government that we are going to help 
build schools that are not radicalized by sending people in 
there through an NGO? And you mentioned that there is a real 
security problem.
    Ms. Fair. Private schools. I think we really should look at 
these schools. There are a number of very good private schools. 
They have the advantage of aggregating interest, they only 
happen when there is an actual demand, and the other issue with 
girls' schooling, you need to have schools that are close to 
the girl's home. Otherwise the family won't send them. I really 
like Lisa's suggestion, without absolutely partnered Pakistani 
interest this is going to go nowhere. USAID will tell you they 
can't find where the $100 million that they gave them went. The 
money has simply disappeared. But there are a number of private 
sector schools, and we do this so well, why can't we partner 
with private sector schools in Pakistan or give scholarships to 
poor kids who go to private sector schools?
    Mr. Burton. Well, that is the question I am asking.
    Ms. Fair. I think we should look at this. It is trying to 
be creative.
    Mr. Burton. Well, that is what I would like to have is some 
conclusion on how we get the money for its proper purpose. And 
if we are not, then we shouldn't be sending that money over in 
the first place.
    I want to ask two more questions, Mr. Chairman, I will let 
them answer those all together.
    First of all, the Saudis and the Gulf States have been 
sending a lot of money, and they are for these madrassahs, and 
they have been using that money in other parts of the world as 
well. I will agree that the vast majority of the mosques do not 
teach radicalism, but there are those that do. And the money 
that is coming in from Saudi Arabia and from the Gulf States, 
they are very wealthy because of our oil money, how do we make 
sure that that is not going for radicalization of the young 
people there in Pakistan?
    Ms. Curtis. Well, I think we have to make the Pakistan 
Government accountable for what is happening within its own 
borders. And if there are radical madrassahs or training camps 
or whatever you want to call them, they need to be shut down, 
they need to be dealt with. And we have not seen that yet. So I 
would argue that we need to address it through Pakistan. We can 
try to work it from the Saudi angle stopping the private money 
going in, but I would make the Pakistanis responsible for what 
is happening on their territory.
    Mr. Burton. Well, Mr. Chairman, I see my time is expired, 
but let me just say to you that it appears to me that maybe we 
should talk to Saudi Arabia and the other Gulf States and say 
when they do give this money for teaching Islam that they make 
sure that the madrassahs that are getting it don't teach this 
radicalism. I don't know how that is done, but I am very 
concerned that the long-term problems over in Pakistan are not 
going to go away.
    That is a nuclear power and it is a breeding ground right 
now for terrorism, and many of the terrorists came from there 
and Saudi Arabia that attacked the World Trade Center, and it 
just seems to me that we have got to find some way to cut off 
the funding for the instruction that is going to these people 
that is radicalizing them. And that may not be the only place 
they are being taught this radical approach, but that certainly 
is one of them.
    And the other thing is Saudi Arabia is worried that, and so 
are the Gulf States, about Iran becoming a nuclear power and 
them being able to run that whole region. And if Pakistan were 
to fall to the Taliban and you had Iran becoming a nuclear 
power, Saudi Arabia and the Gulf States would be at their 
mercy. And they know that right now, so I can't understand why 
they can't say that the money that they are sending for these 
educational purposes is for education and not for any 
radicalization, and they ought to be able to set standards and 
boundaries on how that money is used so that we cut back on the 
amount of radicals that are being taught in the madrassahs.
    Mr. Ellison. The chair will recognize the chair from 
California.
    Chairman Berman. Thank you very much, Mr. Chairman, and to 
my friend from Indiana, I met this morning with the Saudi 
Arabian Ambassador, and I asked him a number of these 
questions. And I suggest it is worth the time to do it because 
these were questions that were raised on our trip to India and 
Pakistan, and they have been around for a long time, this whole 
issue of ``Saudi money.'' And he makes a few points. One, there 
are a very large number of both Pakistani and other nationals 
in Saudi Arabia who--surprise of surprises--send remittances 
back to their home country, to the families in their countries.
    Secondly, that the Saudis have internalized the danger of 
the whole threat of radical terrorists and are looking for any 
actionable information on who in their kingdom is actually 
doing the kind of funding. They think they have dealt with the 
charities, but they are open to getting any actionable 
intelligence. It was an interesting meeting, but that isn't why 
we are here.
    Well, maybe it is, but I want to take a little time, I had 
the misfortune, we have brought three really excellent 
witnesses who have spent time thinking about and writing 
testimony that I haven't yet read, and then listening to them 
summarize very quickly some of their thoughts in my somewhat 
limited capacity to absorb everything they are saying as 
quickly as they are saying it. So I would like to deconstruct 
the bill for a second and then sort of see to put it back 
together.
    Do you think we should be providing a significant amount of 
security assistance to Pakistan? I mean, that is sort of a yes 
or no kind of thing. Everybody seems to be saying yes. And is 
our goal beyond just making the Pakistani Government and the 
Pakistani military leadership happy with us or do we have a 
strategic objective along the lines outlined by Ambassador 
Holbrooke of, one, helping us be successful in Afghanistan, 
two, helping Pakistan resist more effectively the internal 
insurgency that it faces, and providing the means and the 
equipment to accomplish both of those goals? Is that the 
purpose of this security assistance or is it a more general 
walking around money to build a good relationship with the 
government?
    Ms. Fair. We want them to be more effective in prosecuting 
the mutual objectives.
    Chairman Berman. Right. All right.
    Ms. Fair. I would add one more. Ending dual policies that 
also cause instability in Pakistan itself.
    Chairman Berman. Dual policies?
    Ms. Fair. Dual policies toward terrorists which actually 
lead to instability within Pakistan.
    Chairman Berman. Incentivizing the rejection of what some 
people refer to as appeasement agreements with these forces 
that end up only holding for a short period of time and then 
come back to haunt them. All right, now if that is the goal and 
now we have to sell the United States Congress on authorizing 
and appropriating a significant amount of security assistance 
in the wake of 8 or 9 years of providing a lot of assistance 
for which we didn't have benchmarks, we didn't have metrics, we 
didn't have accountability, we didn't have monitoring, and I 
think one of you mentioned the Coalition Support Funds, which 
was a wonderful story of money going somewhere for something 
that no one can tell me what it was for.
    We have heard, Ambassador Holbrooke talked a little bit 
about it, the Pakistan military and probably their political 
leadership, sees a well-armed opponent, enemy, rival, across 
the border on the east, there have been a series of clashes. 
And for them, for a very long time that has been the dominant 
political threat or opponent. If our goal is strengthening 
their ability to fight the insurgency and dealing with those 
people who would do us harm in Afghanistan and those 
organizations that would try to hit us here, what is wrong with 
trying to ensure that the money we are giving, that American 
taxpayers are giving, isn't for those purposes rather than the 
purposes that Pakistan might have historically used the money 
for?
    Mr. Markey. It is absolutely the right goal. The points of 
I think some of the criticism of the way in which that goal is 
being achieved is that it is perceived by those actors, and in 
this case it is the Pakistani military leadership, as something 
that is deeply difficult for them politically to accept in the 
Pakistani political context.
    Chairman Berman. And does that mean that you are sure they 
share our goal, want the money for the same goal that we have, 
or that they are deeply offended because it somehow constrains 
them from doing some of the things they might otherwise want to 
do?
    Mr. Markey. Well, I think we are playing into a political 
debate within Pakistan which has different actors, some of whom 
are more inclined to do the things that we want and some of 
whom are not. And our goal should be to support those actors 
who are inclined to do what we want and give them a confidence 
that we will be with them over a long haul. Now we cannot be 
sure that they will win the debate inside of Pakistan. And so 
empowering them that we achieve our success.
    Our statements publicly suggesting sanctions and the 
implication that if they don't do what we want that we will 
pull the money away basically undercuts those potential 
partners. It doesn't mean that that is not what we want them to 
do, it is simply that is not probably the best mechanism for 
getting them to do it. And that is not, I should say, an 
implication that we should just simply be shoveling more money 
at them but that doing it through legislation is probably not 
the most effective way to achieve our goal.
    Chairman Berman. So first of all, the failure to 
appropriate additional funds for security assistance is not a 
sanction. There is no doubt that some of our policies, the 
Pressler Amendment, things like this, constrained our 
flexibility too much. But I don't think our bill should be 
viewed as sanctions for not doing something, it is sort of 
trying to set up some process for continuing to do a much 
greater effort than we have been doing. Let us assume we 
persist with this effort and somehow manage to get it through 
and at the end of the day it becomes law and the appropriators 
go along with it. What is the Pakistani reaction<greek-l>s deg. 
going to be?
    Ms. Curtis. Well, I would just point out that, you know, 
part of the bill is authorizing $1.5 billion in economic 
assistance without condition.
    Chairman Berman. Right.
    Ms. Curtis. And I think that shows very strongly a long-
term commitment and wanting to partner with Pakistan. So I 
think we just need to keep that in mind, and hopefully that 
would be what Pakistanis would focus on. I think that the idea 
of conditioning, while I acknowledged in my remarks that we 
need to do it in a way that we do acknowledge Pakistani 
security concerns, we don't want to come across as not taking 
seriously their concerns, that is part of the partnership, 
understanding what are your core security concerns. But they 
need to understand our core security concerns, which is 
stabilizing and securing Afghanistan.
    And so we need to sort of remove the emotion here and look 
at what we are trying to achieve. And I think in terms of a 
Pakistani reaction, I think the majority of Pakistanis would 
relish seeing more transparency in our aid, the way we provide 
aid, I mean you had many Pakistanis wondering where did all 
that security assistance go? They were wondering just like a 
lot of Americans were. So I think it actually helps to provide 
a more even keel relationship and more transparency in our 
partnership.
    Chairman Berman. But that is what we are trying to do in 
this legislation.
    Ms. Curtis. Agreed.
    Chairman Berman. Yes.
    Ms. Fair. Well, my concern, Lisa and I are probably on the 
same page on this, we actually have large areas of goals that 
actually don't overlap. And we know about the transcripts from 
Kiyani saying that Haqqani is a strategic asset.
    Chairman Berman. You are talking about Fatah Haqqani, not 
Ambassador.
    Ms. Fair. Yes, exactly. So there are a number of 
individuals like, for example, Malvi Nazir, obviously Haqqani, 
Hekmatyar, that they still see as assets, which are actually 
undermining our interests in Afghanistan. And, you know, the 
last 8 years has really been a period of ignoring this reality. 
So I actually am very pleased that there is some effort to 
grapple with this. I think part of the failure of the last 8 
years of programming really has been this Coalition Support 
Fund and the lack of willingness to demand transparency and 
accountability.
    Now I will say this, Pakistan has developed a tremendous 
sense of entitlement to United States funding. Therefore, not 
appropriating does seem redolent of in fact some kind of 
sanction. But what is interesting about this bill, which makes 
the issues of conditionality much more challenging, is that you 
have already narrowly focused the majority of the assistance to 
helping them do the things that we want them to do, which is go 
after the bad guys.
    But we have seen in the last couple of years that the sense 
of the Congress has actually been overridden. We saw the 
discussion a couple years back that F-16s are an effective 
counterinsurgency tool. So, if you are confident that the money 
is going to be spent on the stuff you want them to do, there is 
an argument to be made that the conditionalities in state are 
kind of irrelevant. I mean, to play devil's advocate, do we 
really want to constrain ourselves from helping the Pakistanis 
go after the people we want them to go after?
    Chairman Berman. To constrain ourselves from?
    Ms. Fair. Basically most of the aid is going to 
counterinsurgency and counterterrorism.
    Chairman Berman. So the limitation that says 75 percent of 
this money has to go to those purposes doesn't bother you?
    Ms. Fair. No, I actually very much support that. The long 
haul of United States-Pakistan relations has been Pakistan 
saying I support your strategic goals when in fact it doesn't, 
and it uses that assistance to prepare itself for its strategic 
goal, which is its fight with India. So I have long been saying 
get rid of CSF, this should really be a collaborative 
programming to help them do the things that they want to do.
    Now the Army has been very clear, they don't want to become 
a counterinsurgency force, which is why I say in my written 
testimony we have missed an enormous opportunity.
    Chairman Berman. Yes, on the police. And we do have some 
reference to it, but we are going to expand that. We take your 
point on that.
    Mr. Markey. Just to respond to the specific question of how 
the Pakistanis respond assuming that this became law. They will 
take the money, those within the Pakistani military will, some 
of them, resent us.
    Chairman Berman. They are not going to get money. They are 
going to get equipment, they are going to get material, they 
are going to get training.
    Mr. Markey. Well, they will take all of that and they will 
take the $1.5 billion on the civilian side. So internally there 
will be some resentment and some grumbling. This will not help 
us in internal debates within the Pakistani Army, to the extent 
that we care about that, then they will proceed to fail on a 
number of accounts that have been laid out within the 
legislation. They will not achieve all of the things that we 
want, including, for instance, providing A.Q. Khan, I am almost 
100 percent sure of that.
    Chairman Berman. The bill doesn't require them to provide 
A.Q. Khan.
    Mr. Markey. I understand. And then we will come back to 
them.
    Chairman Berman. But if you understand, then what?
    Mr. Markey. Well, I am saying this is a request that we 
have that it was the sense of the Congress that they should 
pony up A.Q. Khan.
    Chairman Berman. No, we said that they should work with us 
to dismantle this proliferation network, and if it is 
necessary, include in that access to people who were involved.
    Mr. Markey. Okay, that is fair. There will be other areas 
where they will fail to meet our stated goals, probably 
including there will be evidence of some continued 
collaboration, cooperation, assistance, passive or active, with 
groups that we perceive to be working counter to our purposes. 
I think that is fair to say. A year from now we will come back 
and the administration will be in a tough position of having to 
ask for waivers, and then we will be back, and it is hard to 
see where that benefits the broader, longer term goal of 
building up partners in Pakistan's state, society and military 
who are willing to work with us.
    Chairman Berman. See, I look at it a little differently. I 
think fundamentally we are really only requiring two things: 
One, that the President, after looking at everything, conclude, 
one, that Pakistan is committed to this counterinsurgency 
campaign, and secondly that he thinks on balance you have the 
negatives, you have the positives, it is not going to be 
perfect, we know that on balance they are making some progress, 
whether it is because of that commitment and because of the 
assistance we are giving them and their own contributions, 
making some progress in dealing with it. And then everything 
else is just sort of indicators, not an exclusive list of them, 
of what they should be doing. And it doesn't seem like a huge 
reach when you are asking the Congress to do all this to at 
least sort of lay out what we expect to get here.
    Mr. Markey. Then I think the earlier discussion of the 
sweet spot and the framing of precisely the kind of language 
that would be less difficult for Pakistanis to take is exactly 
the way to go. And that sounds like the way you are going, so 
that is great.
    Chairman Berman. Thank you.
    Mr. Ellison. The gentlelady from Texas is recognized for 5 
minutes.
    Ms. Jackson Lee. Let me thank the chairman. And the good 
news is that the bells are 50 minutes to vote, so I have a long 
time to talk with you. Let me thank the chairman for this 
hearing, and both chairpersons, the presiding chairperson as 
well, and allow me to express some widely held levels of 
frustration.
    If you doom a person or a country to fail, they will fail. 
And to a large degree I have heard discussions of failure, and 
it is frustrating. I think we need to recount the history of 
Pakistan, its original founder, even though it was founded out 
of the dissecting of the large area that now includes India and 
Bangladesh for reasons that we might debate now, Mr. Jinna was 
a person who believed in democracy, though he acknowledged the 
distinctions between those who lived predominantly in the 
territory where India and the differences as relates to Islam 
and wanted to have a country of Muslims, but he believed in 
democracy.
    Secondarily, my understanding is that Pakistan did wage a 
valiant battle during the 20-year Afghan-Russian war and worked 
alongside of the United States, and we are still reminded of 
that departure.
    Thirdly, there is a vast constituency of educated 
Pakistanis of business class and others who want a stable 
Pakistan. Does anyone care about working with them? You cannot 
move forward if you do not allow some good news to come out of 
Pakistan. And from experts to a range of others we can't seem 
to captures any good news.
    Now I join with my colleagues, I believe we have to get to 
the bottom of A.Q. Khan, if that requires some classified 
briefings which we need to have, and I thank the chairman for 
helping us and assisting us with that. That is vital because we 
need to get an understanding of where we stand as relates to 
A.Q. Khan's proliferation, continued dialogue, what he did in 
the past. But I do think it is worth noting that there were 
briefings last week at the White House and the administration 
came away with a certain calm about whether or not they were 
proliferating nuclear secrets. So let me start with that 
premise. I have laid my cards on the table and I appreciate 
that some of you as witnesses have been indicating let us look 
at the facts.
    Ms. Fair, is there not a contingent of peace-loving, 
democracy-loving Pakistanis that live in Pakistan?
    Ms. Fair. Actually, you know, I have done survey work on 
this issue. I have a survey right now going into the field of 
6,000 people with a colleague at Princeton, we are looking at 
exactly this. In the survey that I fielded in 2007 when I was 
with the U.S. Institute of Peace, while the vast majority of 
folks did find al-Qaeda and other militant groups to be a 
significant threat, I did find anywhere between one in three 
and one in five largely urban respondents actually supported 
considerably or in a great deal a variety of militant attacks 
that we gave them to respond to.
    Ms. Jackson Lee. And what were these urban persons that you 
polled? Do you have an economic base, an educational base?
    Ms. Fair. As a matter of fact I would be happy to brief you 
if you are interested in this. My colleague at Princeton, he is 
an econometrician, so we were able to cross-walk our data with 
household economic survey data, and we had a number of very 
surprising results, not surprising to us because it is a very 
robust result across work in a variety of countries. The least 
poor and the rich were not the ones who supported these 
terrorist groups on the main. It was actually the middle class, 
it is that very middle class that everyone talks about 
strengthening. The least educated are not the ones that worry 
about this. Again, it is the people who are right in the 
middle.
    Ms. Jackson Lee. And the least educated dominate Pakistan, 
is that correct?
    Ms. Fair. Well, it depends on the metrics.
    Ms. Jackson Lee. Yes, they do. The least educated dominate, 
the poor are the greater population in Pakistan.
    Ms. Fair. Yes, absolutely, there is no question.
    Ms. Jackson Lee. So then we have a good base between the 
poor and the very rich that we could at least begin with, and 
we certainly have to address the question of the middle 
educated. And I am not doubting your data. In fact I am very 
glad and I would like to have a briefing, but my belief is that 
if we cannot find some common ground to work with, they are 
going to fail. I do think it is important for there to be a 
stable government, and so my question would be to Mr. Markey, 
the importance of possibly a unity government between the 
Sharif brothers and the present government, if that has any 
possibility or legs to it.
    Mr. Markey. Well, as we have seen over the past year, there 
are a lot of possible configurations you could have in 
Pakistani politics. But the kind of debate that we have seen 
emerge and the kind of recurrent disagreements between those 
two parties over the past several months lead me to believe 
that there is a great deal of question that you would see a 
true unity government. But what you have seen is the return of 
a PMLN government, Nawaz Sharif's brother, Shahbaz Sharif, 
heading up in Punjab, and a center government by the PPP. This 
could conceivably be a relatively reasonable stable way to move 
ahead over the next several years. But that is not necessarily 
a unity government.
    Ms. Jackson Lee. No, and I understand that and I take your 
comment on that. I think your comment is instructive. So we 
should try to encourage at least dialogue, resolution around 
issues, and so as we discuss and have meetings with our friends 
this week from Pakistan we should emphasize that level of 
stability if we can.
    Mr. Markey. Absolutely.
    Ms. Jackson Lee. And that would not be considered 
intrusive. You were I guess in the audience when Ambassador 
Holbrooke spoke, and you know that his mission is Afghanistan 
and Pakistan. I have always made the argument that there should 
be a regional effort. Obviously the plate would be very full, 
but we should never leave out Bangladesh. We are delighted that 
they are at least not in the mainstream news at this point, we 
thank them for that having visited them some years ago.
    And India, though we recognize that India doesn't want that 
to be their defining definition to the world. And I appreciate 
that, but is there some value to looking forward, putting aside 
some of the mountains we have to climb, Kashmir, Mumbai, but 
should there be some sort of regional discussions so that there 
are some discussions that we foster if you will that would 
include India, Afghanistan, Pakistan and maybe even Bangladesh?
    Mr. Markey. Absolutely, there should be a regional 
discussion. I would extend the regional discussion to go to 
China, to go to Saudi Arabia, which has come up in some of the 
earlier conversation here. But the problem is that in the 
particular instance of India, there is as much chance that if 
we extend say the writ of Ambassador Holbrooke to India that it 
is a counterproductive move to do it publicly. And to try to 
make that kind of conversation a broad diplomatic one with a 
high level of intense focus publicly, that may actually hurt 
us. So it is probably better, and I think most people have come 
around to the idea, that India needs to be a part of our 
strategic view of the region, but it may not need to be central 
to our diplomacy in a public sense.
    Ms. Jackson Lee. Well, I think you have answered the 
question there should be a regional approach and the tactics is 
something that we should be sensitive to. And I agree, that is 
why I started by saying, they are not necessarily interested in 
being defined in that manner.
    Let me emphasize to all of you to answer this one. I think 
Chairman Berman has struck a very effective cord, there seems 
to be some discord about how that works, but we understand that 
the madrassah, if I could finish this question I would 
appreciate it, if the madrassah is a school, the Taliban is a 
student. How much more can we do to get Pakistan to put real 
schools in place for these poor people mostly?
    Ms. Fair. The vast majority of madrassahs, there are 
actually different kinds of madrassahs. There is primary 
madrassahs where children simply learn to memorize the Koran as 
a part of going to other schools. So we have to really think 
about what a madrassah is, and as Lisa Curtis has said, we 
actually know with some certainty where the bad madrassahs are, 
and in many cases what we really should be focusing on, 
training camps.
    I don't believe that the Ministry of Education is a 
partner. It is a status quo institution. No ministry or 
department of education wants to be told what their curriculum 
is. But there are a number, and I will tell you there is an 
interesting survey of students about their attitudes toward 
militancy, and it would perhaps not surprise you that the 
attitudes of madrassah students and public school students 
toward militancy is actually not that dissimilar. The private 
school students, well, let me put it to you this way, I want to 
live next to their houses.
    So I think we really need to be creative. The private 
school sector is growing, it accounts for 30 percent of 
Pakistan's student body that attend school full-time. Public 
schools are 70 percent, madrassahs are a rounding error. So I 
think we need to be creative. We need to work with people who 
want to work with us. All parents in Pakistan, they want their 
kids to be well-prepared for the workplace, they want jobs for 
their kids, but we should really not underestimate the degree 
to which they want their children to be good Muslims.
    There are a lot of parallels to be drawn I think to the 
parochial school movement here at the turn of the century. And 
rather than alienating people who want religion in their 
schools, maybe we should be partnering up with organizations 
that do parochial schooling here because I think they share 
many of the same values. There are many Islamic schools here in 
the States who have struck a balance between producing good 
Muslim values and also producing a good education.
    This goes back to your diaspora question. We have got loads 
of Pakistanis here that find a way of balancing their 
commitment to Islam and their commitment to educating their 
children, and these are the sorts of organizations that we 
should be engaging to go back to Pakistan and help madrassahs 
professionalize. Again, not all madrassahs are simply teaching 
Koranic memorization. Jamat Islami madrassahs since the 1960s 
have been teaching a social studies curriculum, and many people 
will tell you that a Jamat Islami madrassah is better than your 
average Pakistani public school. So we really do need to 
rethink the way we conceive of the Pakistan educational 
problem. There are more solutions out there than I think we 
give ourselves credit for.
    Ms. Jackson Lee. I thank you, Mr. Chairman, for your 
indulgence.
    And I thank the witnesses and look forward to working with 
the Pakistan community.
    Mr. Ellison. Additional answers will be submitted for the 
record. Without objection, members who were unable to make an 
opening statement may submit the statements for the record. 
Without objection, the full testimony of the witnesses on the 
second panel shall be made part of the record. This hearing is 
adjourned.
    [Whereupon, at 3:20 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Burton statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Watson statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Green statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Jackson Lee statement deg.

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Klein statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>McMahon QFR deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Klein QFR deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly QFR deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Royce QFR deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Lee QFR deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Lee FTR deg.

   Material Submitted for the Record by the Honorable Barbara Lee, a 
        Representative in Congress from the State of California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Flake FTR deg.__

   Material Submitted for the Record by the Honorable Jeff Flake, a 
          Representative in Congress from the State of Arizona

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
